<html>
<title> - NOMINATIONS TO THE BOARD OF DIRECTORS OF THE CORPORATION FOR PUBLIC BROADCASTING</title>
<body><pre>[Senate Hearing 110-1226]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1226

 
                           NOMINATIONS TO THE
                       BOARD OF DIRECTORS OF THE
                  CORPORATION FOR PUBLIC BROADCASTING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
80-430                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia                             Ranking
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska, Vice Chairman
BYRON L. DORGAN, North Dakota        JOHN McCAIN, Arizona
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 17, 2008...............................     1
Statement of Senator Hutchison...................................    19
Statement of Senator Inouye......................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Pryor.......................................    10
Statement of Senator Stevens.....................................    18
    Prepared statement...........................................    18
Statement of Senator Thune.......................................    20

                               Witnesses

Halpern, Hon. Cheryl Feldman, Member, Board of Directors, 
  Corporation for Public Broadcasting............................    20
    Prepared statement...........................................    22
    Biographical information.....................................    23
Pryor, Hon. David H., Renominated to be a Member of the Board of 
  Directors, Corporation for Public Broadcasting.................    10
    Prepared statement...........................................    12
    Biographical information.....................................    13
Ramer, Bruce M., Member-Designate, Board of Directors, 
  Corporation for Public Broadcasting............................    30
    Prepared statement...........................................    32
    Biographical information.....................................    34
Sembler, Elizabeth, Member-Designate, Board of Directors, 
  Corporation for Public Broadcasting............................     3
    Biographical information.....................................     4
Sutliff, Loretta Cheryl, Member-Designate, Board of Directors, 
  Corporation for Public Broadcasting............................    41
    Prepared statement...........................................    43
    Biographical information.....................................    44

                                Appendix

Response to written questions submitted by Hon. Byron L. Dorgan 
  to:
    All CPB nominees.............................................    51
    Cheryl Feldman Halpern.......................................    52
    Bruce M. Ramer...............................................    54
    Elizabeth Sembler............................................    54
    Loretta Sutliff..............................................    55


                           NOMINATIONS TO THE
                       BOARD OF DIRECTORS OF THE
                  CORPORATION FOR PUBLIC BROADCASTING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good morning. This morning, we hold a hearing 
with the five nominees for the Corporation for Public 
Broadcasting Board of Directors.
    And I am especially pleased to welcome our friend and 
former colleague David Pryor back to the U.S. Senate, at least 
electronically.
    Since its creation in the 1967 Public Broadcasting Act, 
public broadcasting has become a unique voice in our local 
communities. Public broadcasting has provided educational, 
cultural, and informational programming that takes creative 
risks and serves traditionally unserved and underserved 
populations.
    Public broadcasting has become a forum for award-winning 
documentaries, outstanding children's programming, and in-depth 
news and public affairs programming that is not always found on 
commercial stations.
    As you may be aware, I am a long-time supporter of public 
broadcasting. So I was very troubled when only a few years ago, 
the Inspector General of the Corporation for Public 
Broadcasting found that actions of the former Chairman of the 
Board had violated the Public Broadcasting Act of 1967 as well 
as the Director's Code of Ethics. Though this dark episode is 
behind us, it cast an unfortunate shadow.
    The nominees for the Board must understand that they occupy 
a position of public trust. So, on behalf of the Committee, I 
ask all of you to commit to the success of public broadcasting 
and work to ensure that the future is bright.
    This challenge is especially acute for public television 
stations because only 5 months from today, this nation will 
transform--transition from analog to digital signals. As Board 
members, you will bear responsibilities for the digital 
transition and be expected to help ensure success.
    I would like to now call upon the Senator from Florida, Mr. 
Nelson, for his remarks.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you.
    And I want to say a word about David Pryor and Liz Sembler. 
And David, you are joining us by teleconference. We all know 
the enormous contributions that you have made to your country. 
But perhaps the greatest contribution that you have made is 
that you have sent us your son, Mark Pryor, who is our 
colleague here in the Senate and one of my dearest personal 
friends in the Senate. So thank you very much for that.
    Senator David Pryor. Thank you, sir.
    Senator Nelson. Mr. Chairman, I want to introduce to the 
Committee, Liz Sembler, who has been nominated to serve on this 
board.
    For over 15 years, she has been deeply involved in the 
efforts to support public broadcasting, and she has done that 
in Florida, and throughout the country. She has served on the 
board of directors of WEDU, which is the public broadcasting 
station in the Tampa Bay area. And during that time, she has 
been involved in what each of those public broadcasting 
stations has to do, which includes raising money and doing 
community outreach, as well as the station's efforts to prepare 
for the transition to digital television, which is going to 
occur next February.
    She has also served on the Board of Directors of the 
Association of Public Television Stations. And there, she 
worked with both sides of the aisle to ensure the continuation 
of support for the Corporation for Public Broadcasting.
    I want to point out that she is an educator. And as we look 
at the future of the Corporation for Public Broadcasting, it is 
to ensure that public broadcasters across the country provide 
programming that educates and inspires the children of America. 
And Ms. Sembler understands what we need to do to adapt this 
corporation to an Internet-based world. And so, I want to give 
my recommendation that we approve her.
    And Senator Pryor, just before you came, I had some 
opportunity to comment that your father's greatest contribution 
to the country is that he sent you here to the Senate.
    So, thank you, Mr. Chairman, for sharing these remarks.
    The Chairman. We have a lovefest here.
    [Laughter.]
    The Chairman. Well, with that introduction, I would like to 
call upon the first nominee, Ms. Elizabeth Sembler. I have been 
told that you have family members here. Would you like to 
introduce them?

                STATEMENT OF ELIZABETH SEMBLER,

             MEMBER-DESIGNATE, BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Ms. Sembler. Thank you very much. And thank you, Senator 
Nelson, for your comments.
    I have sitting behind me my parents, Ruth and Leonard Mauer 
from New York. And it is my father's 77th birthday today. So 
this is very exciting that he is here.
    I have my husband, Greg Sembler, who is with me, and three 
of my four children--Jacob Sembler, Eve Sembler, and Benjamin 
Sembler.
    The Chairman. Happy birthday, Father. Please proceed.
    Ms. Sembler. Mr. Chairman and Members of the Commerce 
Committee, thank you very much for the opportunity to appear 
before you this morning to discuss my nomination to the Board 
of Directors for the Corporation for Public Broadcasting. I 
would also like to thank President Bush for having confidence 
in me and honoring me with this nomination.
    Fifteen years ago this month, I attended my first board 
meeting as a new member of the Board of Directors of WEDU, my 
local public television station in Tampa, Florida. When I was 
asked to serve on that Board, I willingly agreed. As a viewer, 
I appreciated the public affairs programming. And as the mom of 
three very young children with a fourth on the way, I was 
dependent upon the PBS show ``Barney and Friends'' for at least 
a half an hour of calm each morning during the reigning chaos. 
``Yes, of course, I will volunteer for this cause,'' I told the 
board officer who recruited me. ``I love public television. I 
need public television. Doesn't everyone?''
    Over the past decade and a half, as my babies have grown 
into the teenagers sitting before you today, so, too, has my 
awe for what our nation's public broadcasters accomplish each 
and every day.
    I have witnessed firsthand, as a board member of WEDU, and 
later as its chairman, the masterfully coordinated efforts of 
station manager and producers, engineers and pledge drive VPs, 
Ready To Learn outreach directors and capital campaign 
fundraisers, underwriting salesmen and programmers, and, of 
course, volunteers and board members, all of whom work together 
to provide the finest television broadcasts available in our 
country. Programming which, in my opinion, far surpasses the 
offerings available on any other channel.
    The more I learned at WEDU, the more determined I became to 
ensure that the Federal Government continued to support our 
efforts and continued to share the burden of our expenses. Year 
after year, I traveled here to Washington to visit you and your 
colleagues to remind you of the value of this national asset 
and to convince reluctant supporters to step up and fund our 
efforts.
    In the process, I learned about the Association of Public 
Television Stations and their efforts to organize us in our 
outreach, and they learned about me. Four years ago, I joined 
their national board of directors and now work with the finest 
CEOs and station managers from around the country to help 
educate you, the Members of Congress, on the critical issues 
facing the public television community.
    And as I know you are aware, there are critical issues. 
Perhaps looming largest is the February 17, 2009, analog 
shutoff date for television broadcasts. So many are hard at 
work to ensure smooth transition to digital broadcasting, yet 
just last week, the FCC reported concerns in early testing in 
North Carolina. This is particularly troubling for public TV 
broadcasters.
    Of the estimated 25 million Americans who receive their 
television programming over the air and who will need to do the 
most to transition to digital reception, a significant number 
are supporters and viewers of public television. The CPB and 
its stations must work hard with commercial broadcasters and 
Congress to ensure the success of the transition and ensure 
that the audience for public television can find its 
programming.
    There are other critical issues for public broadcasters, 
who must now compete for eyeballs and eardrums in an era of 
channel proliferation and emerging media and distribution 
platforms.
    My children can send a text message on their phones while 
they listen to their iPods, surf the Web, and flip back and 
forth among several television shows simultaneously. Just the 
thought of it gives me a headache, but this young generation is 
adept and sophisticated in its use of technology. It behooves 
us to keep up with their needs.
    Additionally, public broadcasters must face these 
challenges and accomplish their goals in an era of Federal 
funding that, while now increasing, does not keep pace with 
inflation. It is, indeed, a critical time for CPB and the 
stations it supports.
    I believe that my background will prepare me well, if I am 
confirmed to serve on the CPB board, to help the Corporation 
meet the challenges it now faces. My years of service as a 
public television station board member, both locally and on the 
APTS board, have provided me a front-row seat in the arena. I 
am continually exposed to the flow of ideas and issues in the 
world of public broadcasting, both television and radio.
    Also, I am a schoolteacher and administrator by profession. 
Education continues to be a core value of the public 
broadcasting community. Indeed, the CPB's mission is to inform, 
enlighten, and enrich the public. The Federal Act which created 
the Corporation specifically underscored the use of public 
media for instructional, educational, and cultural purposes.
    I work with children every day in and out of the classroom, 
and I understand the transformative power of education. If 
confirmed by the U.S. Senate to serve on the CPB board, I will 
draw upon the lessons I have learned from my classroom teaching 
and from my association with WEDU and APTS to help me make 
informed and reasoned decisions. I look forward to the 
possibility.
    Thank you again for this opportunity to appear before you 
today. I am happy to answer any questions that you may have.
    [The biographical information of Ms. Sembler follows:]

                      A. BIOGRAPHICAL INFORMATION

    1. Name (include any former names or nicknames used):

        Elizabeth Mauer Sembler, Liz Sembler
        Maiden name: Elizabeth Mauer, Liz Mauer
    2. Position to which nominated: Member of the Board of Directors, 
Corporation for Public Broadcasting.
    3. Date of Nomination: May 29, 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1775 Highland Avenue So., Clearwater, FL 33756.

    5. Date and Place of Birth: April 27, 1962; West Hempstead, NY.
    6. Provide the name, position and place of employment for your 
spouse (if married) and the name and ages of your children (including 
stepchildren and children by a previous marriage):

        Spouse: Gregory Scott Sembler, CEO, The Sembler Company, St. 
        Petersburg, FL.; children: Jacob Mauer Sembler (18); Ezra 
        Eugene Sembler, (18); Eve Beth Sembler, (15); Benjamin Henry 
        Sembler, (14).

    7. List all college and graduate degrees. Provide year and school 
attended:

        Syracuse University, B.A., 1984.
        University of South Florida, M.A., 1989.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Newspaper reporter, St. Petersburg Times, 1984-1986

        Classroom teacher and school administrator, Pinellas County 
        Jewish Day School, 2000 to present.

    I believe that my employment experience meshes beautifully with the 
position for which I was nominated, member of the Board of Directors of 
the Corporation for Public Broadcasting. As a journalist, I was trained 
to appreciate and practice non-biased reporting and fairness, both 
vital for the quality public affairs programming offered by non-
commercial public broadcasting. As a school administrator, a managerial 
position, I supervise teachers, oversee a budget, work with clergy, and 
cooperate with community leaders, all important communication and 
supervisory skills that I can draw upon during my CPB Board service. As 
a teacher, I work with young Americans daily in the classroom; I 
understand the educational challenges our nation faces and the value 
provided by quality public educational television for children.

    9. Attach a copy of your resume: A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Not Applicable.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board Memberships:

        Association of Public Television Stations, Washington, D.C.

        WEDU: Florida West Coast Public Broadcasting, Tampa, FL.

        The Florida Orchestra, St. Petersburg, FL.

        William Davidson Graduate School of Jewish Education Board of 
        Overseers, Jewish Theological Seminary, New York, NY.

        Congregation Bnai Israel, St. Petersburg, FL.

        Partnership:

        G & L Sembler Investment Partnership LP

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Congregation Bnai Israel, St. Petersburg, FL: 1986 to present.

                Current Parliamentarian of the Board of Directors and 
                Executive Committee Member.
                Former Ritual Committee Chair.
                Former Pre-School Head Search Committee Chair.

        Congregation Beth Shalom, Clearwater, FL: 2007 to present.

        Young Israel-Chabad of Clearwater, FL: 1986 to present.

        Jewish Educators Assembly, 2002 to present.

        Association for Supervision and Curriculum Development, 2006 to 
        present.

        Hadassah, Life member, 1987 to present.

        Jewish Federation of Pinellas County, FL: 1987 to present.

                Former Board Member.
                Former General Campaign Chair.
                Former Women's Division Campaign Co-Chair.
                Former Leadership Development Chair.

        WEDU: Florida West Coast Public Broadcasting: 1993 to present.

                Current Board Member
                Former Board Chair (2001-2003)

        Republican Jewish Coalition, President's Council, 2002-2006.

    13. Have you ever been a candidate for and/or held public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: Not Applicable.
    14. Itemize all political contributions to any individual, 
campaign, or organization, political party, political action committee, 
or similar entity of $500 or more for the past 10 years. Also list all 
offices you have held with, or services rendered to, a state or 
national political party or election committee during the same period.
    I have not held any office with, or rendered services to, any 
political parties. I have made the following political contributions:

------------------------------------------------------------------------

------------------------------------------------------------------------
1999                        Bush for President, Inc.             $1,000

2003                        Bush-Cheney 2004 (Primary) Inc.      $2,000

2004                        Mel Martinez for Senate              $2,000

2005                        Charlie Crist Florida                  $500
                             Gubernatorial Campaign
                            Rick Baker St. Petersburg              $500
                             Mayoral Campaign
                            Robb Pitts Fulton Co., GA            $1,000
                             Commissioner

2006                        Friends of Joe Lieberman             $1,000
                            Congressman Bill Young Campaign      $2,100
                             Committee (Primary)
                            Congressman Bill Young Campaign      $2,100
                             Committee
                            Calvin Harris Pinellas Co., FL         $500
                             Commissioner
                            Florida Victory 2006                $10,000
                            Angelo Cappelli Campaign               $500

2007                        (Norm) Coleman for Senate 2008       $2,300
                            Mel Martinez for Senate              $2,300
                            (Mitch) McConnell Senate             $2,300
                             Committee 2008
                            Vernon Jones for Georgia             $2,300
                            Republican Party of Florida          $1,000
                            Mitt Romney for President            $2,300
                            Charlie Dean for Florida Senate        $500

2008                        (Eric) Cantor for Congress           $1,000
                            John McCain 2008 Inc.                $2,300
                            John McCain 2008 General             $2,300
                             Election Compliance Fund Inc.
                            Burrell Ellis, DeKalb Co. GA         $1,300
                             Commissioner
                            Andrew Jones Campaign                  $500
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        New York State Regents Scholarship (merit based)

        University Scholar and Class Marshal, Syracuse University Class 
        of 1984

        Edward N. Ludin Young Leadership Award, Pinellas County Jewish 
        Federation

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        In Chaucer's Pilgrims: An Historical Guide to the Pilgrims in 
        The Canterbury Tales, edited by Laura C. Lambdin and Robert T. 
        Lambdin, I contributed Chapter 12: ``A Franklyn Was in His 
        Compaignye'' (1996: Greenwood Press, Westport, CT).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not Applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been nominated to the Board of Directors of the Corporation 
for Public Broadcasting, a position I believe I am well-suited for. 
With my history of volunteer involvement with my local public 
television station (nearly 15 years as a board member, including 
chairman for 2 years) and the industry's national advocacy board 
(APTS); my career as an educator of children and the parent of four; 
and my training early in my career as a journalist, I have confidence 
that I am well-versed in the issues facing the industry--
technologically, politically, financially, and culturally.
    I understand profoundly the importance of public broadcasting and 
the commitment of those involved to provide quality educational, 
cultural and entertaining programming and to fulfill its role in 
helping shape our democracy. As a board member of WEDU in Tampa, 
Florida and a board member of the Association of Public Television 
Stations, I have spent many hours advocating for the Federal funds to 
sustain public television. This experience has helped me to comprehend 
and articulate logically but also passionately just how vital public 
broadcasting is for our country and its citizens. Additionally, during 
the past decade and a half I have also undergone a rigorous education 
in the challenges facing the public broadcasting industry in the 
digital age, including the multi-million dollar capital campaigns 
stations recently underwent to convert from analog to digital 
broadcasting and the public awareness campaigns they are producing now 
to inform the public about the February 2009 analog shutoff date.
    As a teacher and mother, I value highly the role public 
broadcasting plays in educating our youth; as a former journalist I 
cherish the notion of bias-free news reporting, one not beholden to any 
interest group or commercial influence.
    For all of these reasons, I wish to serve on the Board of Directors 
of the Corporation for Public Broadcasting to help ensure that its 
mission is secured for the future, and that the service it provides to 
our country continues to strengthen our citizens, educationally, 
culturally and civically. In an era when the CPB continues to be 
challenged politically and its existence called into question because 
of channel proliferation and new media, I am determined to do my part 
to help articulate the agency's relevance and necessity in our 
democracy that so depends upon a well-informed and educated citizenry.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I expect first and foremost to be educated: I would 
hope to learn about the intricacies of the CPB, its budget, and how it 
is structured as an organization to guarantee that it meets its stated 
mission; I would expect to be introduced to the staff and learn about 
how it works together and with the Board of Directors to fulfill its 
goals. As an educated board member, I can then fulfill my fiduciary 
responsibility to the organization, to the U.S. Senate, which has 
oversight over the agency, and to the American public. Specifically, I 
will ensure that the Corporation has a clear mission statement and 
business plan, that it is properly staffed with a reporting structure 
that can carry out the plan, and that it operates within the resources 
allotted to it by the U.S. Congress. I will review periodic audits of 
the Corporation to ensure the above.
    I am an experienced board member of non-profit organizations and 
institutions, having served or currently serving on the boards of an 
orchestra, a graduate school at a religious seminary, a synagogue, a 
public television station, a national board for public television 
advocacy, and a Jewish federation (communal funding organization). For 
each of these positions, I have pored over budgets, audits, proposals, 
financial rescue plans, capital campaign plans, and the like, and I am 
not afraid to ask questions when the numbers don't seem to add up, 
literally and figuratively.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    We live in an age of rapidly advancing technology; my teen-aged 
children's and my students' media savvy cannot be ignored. The impact 
that this younger generation already has on traditional forms of 
broadcasting, where the CPB has its home, creates challenges for the 
agency and for the public television and radio stations it funds. The 
viewing and listening public's fascination with the interactive nature 
of the internet, the exciting possibilities of open mobile video, the 
ease and availability of on-demand viewing (and the ability to 
eliminate commercial interruptions--are we losing that monopoly?) all 
affect the CPB as it seeks to make a home in the hearts and minds of 
younger viewers/listeners. The challenge for the CPB is to recognize 
and respond to this, and yet not stray from its core mission of 
enabling quality educational, cultural and entertaining programming 
that is available for free to American's citizens.
    Additionally, some Americans and some lawmakers question the need 
for public support of broadcasting and believe public radio and 
television stations, if they exist at all, should generate their own 
funding. These non-supporters point to channel proliferation and new 
media's successful competition for eyeballs and eardrums. To me this is 
a significant challenge, as the continual need for the CPB to justify 
its existence takes a toll on the agency. Time spent by the stations 
supported by the CPB to convince Congressional funders of the necessity 
of those dollars could be better spent on addressing the challenges of 
our digital age.
    Lastly, next February, America will land squarely in the digital 
age when we transition from analog to digital transmission for 
television broadcast. It is estimated that 25 million Americans receive 
their television over the air; there is some concern that not all of 
these viewers understand the implications of this conversion, or what 
to do. It is also estimated that a significant number of those 25 
million are supporters and viewers of public television. The CPB and 
its stations must work hard with commercial broadcasters and the 
Congress to ensure the success of the transition and ensure that the 
audience for public television can find its programming.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    As a teacher/administrator, I have a retirement account with TIAA-
CREF, into which my school contributes a percentage of my salary.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I will continue to work as an administrator (Director of Jewish 
Studies) and middle school teacher at the Pinellas County Jewish Day 
School. The school leadership has agreed to grant me time off to attend 
CPB board meetings and other events of the organization and/or industry 
that will require my presence. If necessary, I will reduce my classroom 
assignments to enable this type of travel.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    The Office of Government Ethics, in its review, noted that my 
interests in the following organizations are potential conflicts of 
interests, because they either receive funding from CPB, are made up of 
stations that receive funds from CPB, are involved in the markets for 
video programming content or delivery, or create educational content: 
AT&T; Comcast Corp.; General Electric Co.; Time Warner; Viacom; Yahoo!; 
Aeon Co. Ltd.; Mediaset; Sumitomo Corporation; Telecom Italia; 
Cebridge; Education Management Corporation; WEDU--Florida West Coast 
Public Boradcasting; and the Association of Public Television Stations.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: Not Applicable.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law and public policy.
    During the past 10 years, as a citizen of the State of Florida, I 
have visited members of the state's delegation to the U.S. Congress to 
request adequate funding for public television. I have never received 
payment from anyone to advocate for this cause.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    It has been pointed out to me during this process by the OGE that 
certain potential conflicts exist (see #3 above); with respect to 
those, pursuant to the CPB's Conflicts of Interest Policy, I will agree 
if confirmed not to participate in any covered transaction between CPB 
and these entities. If confirmed, I will resign my seat on the Board of 
Directors of the Association of Public Television Stations.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: Not Applicable.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may 
reasonably be requested to do so? Yes.
                                 ______
                                 
                         RESUME OF LIZ SEMBLER

Employment History
    Director of Jewish Studies, Pinellas County Jewish Day School 
Clearwater, Florida, 2001 to present.

        Coordinator of Pre-K-8th grade religious education program, 
        responsibilities of which include supervising Hebrew and Jewish 
        Studies teachers; teaching Middle School Bible, Hebrew, and 
        Jewish Studies; conducting daily morning prayer service; 
        setting curriculum; conducting holiday programming; and working 
        with other Jewish communal professionals and rabbis.

    Sixth Grade Jewish Studies Teacher, Pinellas County Jewish Day 
School, Clearwater, Florida, 2000-2001.

    Staff Writer, St. Petersburg Times, Times Publishing Company, St. 
Petersburg, Florida, 1984-1986.
Community Service
    Member, Board of Directors, Florida West Coast Public Broadcasting, 
Inc.--WEDU, Tampa, Florida, 1993 to present.

        Served as Chairman of the Board 2001-2003.

    Member, Board of Directors, Council of Advisors, The Florida 
Orchestra, 1995 to present.

    Member, Board of Overseers, William Davidson Graduate School of 
Jewish Education, Jewish Theological Seminary, New York, New York, 2004 
to present.

    Member, Board of Directors, Association of Public Television 
Stations, Washington, D.C., 2006 to present.

    Jewish Communal Leader, 1987 to present.

        Serving or has served on boards of the Jewish Federation of 
        Pinellas County; the Pinellas County Jewish Day School; 
        Congregation Bnai Israel of St. Petersburg, Florida; Ritual 
        Committee of Congregation Bnai Israel; and National Young 
        Leadership Cabinet of the United Jewish Communities.
Education
    Gratz College, Philadelphia, PA, 2007.

        Graduate Certificate in Jewish Education.

    University of South Florida, Tampa, Florida, 1989.

        Master of Arts in English.

    Syracuse University, Syracuse, New York, 1984.

        Bachelor of Arts in Newspaper and Political Science.
Honors and Recognitions
    Shin Award from the Jewish Theological Seminary, New York for 
Service to Community, Synagogue and the Jewish Theological Seminary, 
2005.

    Young Leadership Award from the Pinellas County Jewish Federation, 
2003.

    University Scholar, Syracuse University, 1984.

    The Chairman. I thank you very much, Ms. Sembler.
    Any questions? Apparently, your record is very clear.
    Ms. Sembler. Thank you.
    The Chairman. Very good.
    May I now recognize Senator Pryor of Arkansas?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Mark Pryor. Thank you, Mr. Chairman.
    And I share the Board's and the prospective Board members' 
concerns about public broadcasting. I think it is a very 
important part of the American fabric, and we need to make sure 
that it remains strong and is doing all the things that it is 
intended to do.
    So, thank you.
    And I want to also thank Senator Inouye for accommodating 
my father to join us today by teleconference, and he is in my 
office in Little Rock. So, Dad, glad you could join us today.
    And I don't have any questions.
    Thank you.
    Senator David Pryor. Thank you, Mark.
    The Chairman. Senator Pryor or Ambassador Pryor, whatever 
it is, the floor is yours, sir.

STATEMENT OF HON. DAVID H. PRYOR, RENOMINATED TO BE A MEMBER OF 
  THE BOARD OF DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Senator David Pryor. Mr. Chairman, I thank you, and I thank 
the distinguished Members of the Committee. And I thank Senator 
Nelson, and I thank Senator Pryor--the other Senator Pryor, or 
the real Senator Pryor, for his nice words.
    And I really do appreciate, Mr. Chairman, you and the 
Committee and the staff accommodating my rather nutty and 
hectic schedule this morning, which has sort of spun out of 
control in recent days.
    For the last 2 years, it has been my honor and privilege to 
interact with my esteemed colleagues as a member of the 
Corporation for Public Broadcasting board. I have had the 
opportunity, Mr. Chairman, to meet and listen to many, many 
viewers and those people who run our public television and 
public radio stations across America and to learn how these 
public television entities and radio stations are affecting the 
lives of each individual American.
    I have also continued to keep up my readings, Mr. Chairman, 
on the history and the purpose and the practice and the 
ultimate mission of public broadcasting that we should never 
lose sight of in our great and diverse country. What I have 
seen and heard is most rewarding, and I believe it validates 
our public investment in this great enterprise.
    And it is, Mr. Chairman, a great investment. It is a great 
investment in our children, in our educational system, and it 
is a great investment in America.
    We are currently celebrating over 40 years of public 
broadcasting in America. Every citizen of our country, rural 
and urban alike, now has access to the many varied programs 
offered by public radio and television. With the large 
television transition coming next year, that access is going to 
be increasingly digital and will span many new and different 
medias--iPods, phones, games--and it will be accompanied by 
more outreach work.
    Notwithstanding the many contributions the commercial 
stations and the new cable systems have made, more and more, 
the average citizen in America has established a very special, 
unique relationship, even a bond, with their favorite program 
brought to them by public broadcast and public radio. We have 
heard this from so many people all over the country through the 
Corporation for Public Broadcasting's My Source initiative, 
which asks viewers and listeners alike to tell local stations 
what they like best about their services.
    I believe, Mr. Chairman and distinguished Members of the 
Committee, that the Corporation for Public Broadcasting, with 
its unique partnerships, member outlets, State governments, and 
private donors, has truly developed a real family, and a strong 
family at that, of support for the common belief that the 
American experience with each other through this system of 
public broadcast, television and radio, has met with enormous 
success. This experience has helped to bring us together to 
define ourselves and to explore in a very transparent way our 
differences and also, most importantly, our common interests.
    Respectfully, Mr. Chairman and members of the Committee, it 
would be so difficult to imagine America without, some 40 years 
ago, ``Sesame Street,'' Robert McNeil, Jim Lehrer, ``Antiques 
Roadshow,'' ``All Things Considered,'' local and national 
debates, ``Car Talk,'' ``Mr. Rogers,'' the real and living part 
of our American landscape that has spanned these four decades 
of public broadcast.
    Mr. Chairman, I can attest that I bring no agenda with my 
nomination today. Although I have very little experience in the 
field of radio or television broadcasting, I have learned a 
great deal in my last 22 months, I certainly hope, both from my 
wonderful and diverse colleagues on the Board--from the fine 
staff that the Corporation for Public Broadcasting has 
assembled; from our Chief Executive Officer, Pat Harrison; and 
from trips and meetings that we have attended as a Board.
    In fact, Mr. Chairman, we had this past summer a very, very 
constructive meeting and a 3-day session in your state of 
Hawaii, which I must say was most enjoyable.
    I pledge that I do bring a strong commitment to this 
system, which is reinforced through my exposure to the good 
work of the corporation that it has accomplished, and I would 
like to continue, Mr. Chairman and Members of the Committee, to 
help make a contribution to CPB's quest for excellence. We are 
certainly on our way. And because of public radio and public 
television, I do believe that America is a better place.
    Thank you, Mr. Chairman. And once again, thank you for the 
accommodations to allow me to appear from Little Rock, 
Arkansas, on this teleconference. I look forward to meeting our 
new colleagues on the board as we go through this coming year--
through the coming years ahead. Thank you.
    [The prepared statement and biographical information of 
Senator David Pryor follow:]

 Prepared Statement of Hon. David H. Pryor, Renominated to be a Member 
     of the Board of Directors, Corporation for Public Broadcasting
    Mr. Chairman and Distinguished Members of the Committee:

    I am honored to join you once more as I am re-nominated to the 
Board of the Corporation for Public Broadcasting. I want to give a 
special thanks to you, Chairman Inouye, and all of the Commerce 
Committee Staff for accommodating my schedule this morning and allowing 
me to appear before you via teleconference.
    For going on 2 years, I have had the opportunity to interact with 
my esteemed colleagues, with public stations' staff and with 
independent producers, to meet the listeners and the viewers, to see 
how CPB's educational and investigative programming truly affects the 
lives of Americans. I have continued to keep up my reading on the 
history, purpose, practice, and ultimate mission of public broadcasting 
in our great and diverse country. What I have seen and heard is 
rewarding, and I believe validates our public investment in this 
enterprise.
    America is currently celebrating forty years of public broadcasting 
in our country. Virtually every American citizen, in every rural and 
urban neighborhood, now has access to the many varied programs offered 
by public radio and television. And with the television transition next 
year, that access will be increasingly digital, and will span many new 
and different media--iPods, phones, games, and will be accompanied by 
more outreach work.
    Notwithstanding the many contributions the commercial stations and 
new cable systems have made, more and more the average citizen in 
America has established a special relationship, even a bond, with their 
favorite program brought to them by public broadcast and public radio. 
We have heard this from so many people over the last year through CPB's 
My Source initiative, which asks viewers and listeners to tell local 
stations what they like best about their services.
    I truly believe that the Corporation for Public Broadcasting, with 
its unique partnerships with member outlets, state governments, and 
private donors, has developed a strong family of support for the common 
belief that sharing the American experience with each other through 
public broadcast television and radio has met enormous success. This 
experience has helped bring us together, to define ourselves, to 
explore in a very transparent way our differences and common interests.
    Respectfully, Mr. Chairman and Members of the Committee, it would 
be difficult to imagine what America might have missed had we failed 
some forty years ago to authorize and commit to a system of public 
broadcasting--Sesame Street. Robert McNeil and Jim Lehrer. Antiques 
Roadshow. All Things Considered. Local and national debates. Car Talk. 
Mr. Rogers--a real and living part of our American landscape.
    Mr. Chairman--I can attest that I bring no agenda with my 
nomination. Although I have very little experience in the field of 
radio or television broadcasting, I have learned a great deal in my 
last 22 months--both from my diverse colleagues and from the trips and 
meetings that we have attended as a Board.
    I pledge that I do bring a strong commitment--which is reinforced 
through my exposure to the good work that the Corporation has 
accomplished--and I would like to continue, to help contribute to CPB's 
quest for excellence. Because of public radio and television, I believe 
that America is a better place.
                                 ______
                                 
                      A. Biographical Information

    1. Name (include any former names or nicknames used): David Hampton 
Pryor.
    2. Position to which nominated: Board of Directors, Corporation for 
Public Broadcasting.
    3. Date of Nomination: June 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1405 N. Pierce Street, Suite 212, Little Rock, AR 
        72207.

    5. Date and Place of Birth: August 29, 1934; Camden, Arkansas.
    6. Provide the name, position and place of employment for your 
spouse (if married) and the name and ages of your children (including 
stepchildren and children by a previous marriage):

        Barbara Lunsford Pryor, (wife--self-employed Interior 
        Decorator); children: David Hampton Pryor, Jr., son, 48; Mark 
        Lunsford Pryor, son, 45; Scott Newton Pryor, son, 42.

    7. List all college and graduate degrees. Provide year and school 
attended:

        B.A., University of Arkansas, 1957.
        L.L.B., University of Arkansas, 1964.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Publisher, The Ouachita Citizen.

        Arkansas State Representative.

        United States Representative (AR).

        Governor, State of Arkansas.

        United States Senator (AR).

        Distinguished Professor, University of Arkansas at 
        Fayetteville.

        Distinguished Professor, Lyon College.

        Fellow, Institute of Politics, Harvard University.

        Director, Institute of Politics, Harvard University.

        Consultant, Federal Express Corporation.

        Managing Director, Herrington, Inc.

        Consultant, CorpHealth.

        Consultant, Waste Management.

        Consultant, Financial Services Corporation.

        Consultant, Halter Financial Group.

        Consultant, Anawah, Inc.

        Consultant, Arkansas Electric Cooperatives.

        Consultant, Waste Management.

        Partner, Sundquist, Pryor, Boland, Reeves, Cloud.

        Consultant, George Tagg Consulting.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Comptroller General's 
Commission to Study the Federal Workers
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Consultant, University of Arkansas.

        Dean, Clinton School of Public Service, University of Arkansas.

        Consultant, Federal Express Corporation.

        Managing Director, Herrington, Inc.

        Consultant, CorpHealth.

        Consultant, Waste Management.

        Consultant, Financial Services Corporation.

        Consultant, Halter Financial Group.

        Consultant, Anawah, Inc.

        Consultant, Arkansas Electric Cooperatives.

        Consultant, Waste Management.

        Partner, Sundquist, Pryor, Boland, Reeves, Cloud.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Heifer International Board Member 2000-2005 (approx.)

        Winrock International Board Member 1998-2000 (approx.)

        Alfalfa Club, 1995 to present.

        Arkansas Arts Center.

        KLRE/KUAR.

        Arkansas Rep Theatre.

        Arkansas Alumni Association, 1990 to present.

        Arkansas Bar Association, since admitted to Bar.

        Association of Former Members of Congress, 2004 to present.

        Chenal Country Club Member, 1998-2000 (approx.)

        Rotary Club of Little Rock, honorary, 1997 to present.

        Blessings Country Club, member, 2008.

    13. Have you ever been a candidate for and/or held public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: Yes, no outstanding debt.
    14. Itemize all political contributions to any individual, 
campaign, or organization, political party, political action committee, 
or similar entity of $500 or more for the past 10 years. Also list all 
offices you have held with, or services rendered to, a state or 
national political party or election committee during the same period.

        Mark Pryor for U.S. Senate

        Will Pryor for Congress

        Hillary Clinton for President

        Chet Culver Committee

        Democratic Party of Arkansas

        John Kerry for President

        Meeks for Congress

        Ed Stanton for Congress

        Dodd for Senate

        Jimmie Lou Fisher Campaign

        Boren for Congress

        Mike Beebe for Governor

        Mike Hathorn

        Vic Snyder for Congress

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Heinz Award Juror for Public Policy.

        AARP Andrus Award.

        1st Annual Wilbur D. Mills Leadership Award for Preserving 
        Social Security.

        KARK Community Service Award.

        Fellow & Director, Institute of Politics, Harvard University.

        Distinguished Service Award, Arkansas Press Association.

        Arkansas Broadcasters Association Arkansan of the Year.

        Arkansas Governor's Conference on Tourism Hall of Fame.

        The International Foundation's Public Service Award.

        Eagle Award, Washington Regional Medical Foundation.

        National Association of Area Agencies on Aging President's 
        Award.

        Arkansas Education Association Friend of Education Award.

        Diamond Award, Arkansas Chapter Public Relations Society of 
        America.

        University of AR Law School Distinguished Alumni Award.

        Elected Officials Appreciation Award--AR Martin Luther King, 
        Jr. Commission.

        Arkansas Agriculture Hall of Fame.

        Historic Preservation Alliance of AR--Parker Westbrook Lifetime 
        Achievement Award.

        Charles M. West Distinguished American Ward--97th NARD Annual 
        Convention.

        University of Arkansas for Medical Sciences Certificate of 
        Appreciation in Grateful Recognition of outstanding 
        contributions to the field of Gerontology and Geriatrics.

        Easter Seals Man of the Year.

        Golden Plow Award, American Farm Bureau Federation.

        Legislative Conservationists of the Year Award by AR Wildlife 
        Federation in Cooperation With the National Wildlife Federation 
        and Sears Roebuck & Co.

        Greater Little Rock Chamber of Commerce Pinnacle Award.

        Honorary Doctorate University of Arkansas.

        Honorary Doctorate Henderson State University.

        Honorary Doctorate Lyon College.

        Honorary Doctorate Philander Smith College.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    During my years in public service, I have given numerous speeches 
and have authored several articles and have not kept a record of such.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have served in both the U.S. Senate and U.S. House of 
Representatives. All of these are public record.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served 1\1/2\ years as a Member of the Board of the 
Corporation for Public Broadcasting. I seriously desire to continue 
carrying out the overall mission of public broadcasting in America as 
set out in the enabling legislation of 1967.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My responsibility as a Member of the Board is to help constantly 
monitor the financial resources granted to the CPB by the U.S. 
Congress.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    To help disseminate objective information, to assist member 
stations throughout America, to meet independent and local challenges 
of public broadcasting, and to make certain our Board acts in a non-
partisan manner, listening to the concerns of the citizens we serve.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        Federal Express Corporation, consultant.

        Herrington, Inc., Managing Director.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    See above
    Additionally, this Fall I will serve as a Distinguished Visiting 
Professor at the University of Arkansas at Fayetteville.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law and public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: N/A.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination:
N/A.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may 
reasonably be requested to do so? Yes.
                                 ______
                                 
                        RESUME OF DAVID H. PRYOR

Education
    University of Arkansas, Fayetteville, Arkansas 1954-1957.

        B.A. Political Science

    University of Arkansas School of Law, Fayetteville, Arkansas 1961-
1964.

        L.L.B.
Employment Summary
        Publisher, The Ouachita Citizen, Camden, Arkansas 1957-1961.

        Arkansas House of Representatives, 1960-1966.

        Attorney, Pryor and Barnes, Camden, Arkansas 1964-1966.

        U.S. Representative, 4th District Arkansas, 1966-1972.

        Governor, State of Arkansas 1975-1979.

        U.S. Senator, State of Arkansas 1979-1996.
Academic Appointments
        Fulbright Distinguished Fellow of Law and Public Affairs, 
        University of Arkansas School of Law. Fayetteville, Arkansas 
        1997.

        Distinguished Professor, Lyon College, Batesville, Arkansas 
        1999.

        Fellow, John F. Kennedy School of Government's Institute of 
        Politics, Harvard University 1999.

        Director of the Institute of Politics, Harvard University 2000.

        Blair Center Distinguished Lecturer in Fulbright College, 
        University of Arkansas. Fayetteville, Arkansas 2003.
Special Honors and Recognitions
        Honorary Doctorate, University of Arkansas.

        Honorary Doctorate, Henderson State University.

        Honorary Doctorate, Lyon College.

        Honorary Doctorate, Philander Smith College.

        Honorary Doctorate, Hendrix College.

        Arkansas Wildlife Federation/National Wildlife Federation 
        Legislative Conservationist of the Year (1982).

        American Farm Bureau Federation Golden Plow Award (1989).

        Easter Seals Arkansan of the Year (1991).

        UAMS Certificate of Appreciation ``In grateful recognition of 
        outstanding contributions to the fields of Gerontology and 
        Geriatrics'' (1992).

        Charles M. West Distinguished American Award (97th Annual NARD 
        Annual Convention, (1995)).

        University of Arkansas Law School Distinguished Alumni Award 
        (1996).

        Historic Preservation Alliance of Arkansas ``Parker Westbrook 
        Lifetime Achievement Award'' (1996).

        Arkansas Agriculture Hall of Fame (1996).

        Arkansas Martin Luther King, Jr. Commission Elected Officials 
        Appreciation Award (1996).

        Arkansas Chapter PRSA Diamond Award (1997).

        Arkansas Education Association Friend of Education Award 
        (1997).

        National Association of Area Agencies on Aging President's 
        Award (1997).

        Washington Regional Medical Foundation Eagle Award (1997).

        International Foundation of Employee Benefits Plan Public 
        Service Award (1997).

        Arkansas Governor's Conference on Tourism Hall of Fame (1997).

        Arkansas Broadcasters Association Arkansan of the Year (1997).

        Arkansas Press Association Distinguished Service Award (1997).

        Arkansas Community Foundation Roots and Wings Award (1998).

        KARK Community Service Award (1999).

        First Annual Wilbur D. Mills Leadership Award for Preserving 
        Social Security (1999).

        AARP Andrus Award (2002).

        Heinz Award ``Juror for Public Policy'' (2004).

        Greater Little Rock Chamber of Commerce Pinnacle Award.

        UAMS Distinguished Service Award.
Selected and Philanthropic Organizations

        Board of Directors, Winrock International (1999-2002).
        Board of Directors, Heifer Project international (1998 to 
        present).
Selected Activities
        International Rescue Committee, Albania (1999).

        Long-Term Care Project, Institute for Healthcare Policy, 
        Georgetown University (2000-2002).

        Comptroller General's Commission to Study the Federal Workforce 
        (2000-2003).

    The Chairman. I thank you very much, Senator Pryor. You 
have come through loud and clear.
    Senator David Pryor. Thank you, sir.
    The Chairman. And I commend you for your continuation of 
public service. I knew you had it in you. But if you don't 
mind, I will call upon your son to question you. A son should 
not----
    [Laughter.]
    Senator Mark Pryor. Mr. Chairman, thank you.
    I really don't have any questions for the panel. But again, 
thank you all for your interest in serving public broadcasting. 
I think it is a very important part of the American fabric, as 
I said a few moments ago.
    And I know how much my father treasures the opportunity to 
serve in that way because he has that strong conviction of how 
important it is. So I am glad to see the rest of you all doing 
the same thing.
    Mr. Chairman, thank you.
    The Chairman. You don't wish to question your father?
    Senator Mark Pryor. Well, is he under oath? That is what I 
want to know. No, we will leave that for later, but thank you.
    The Chairman. Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. I don't know what we can do with two 
Pryors at the same time on this Committee. That is the problem.
    I, too, congratulate you for being willing to continue to 
serve, Senator, and am happy to see you here today.
    Senator David Pryor. Thank you, sir.
    Senator Stevens. Would you put my statement in the record 
someplace, Mr. Chairman? I am sorry to be late.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Mr. Chairman, thank you for holding this morning's hearing. I am 
pleased to see all the nominees here today.
    In an age when talk shows and soap operas rule daytime television 
and reality shows are rampant in primetime, it is important that 
viewers, especially children, have access to the educational and 
diverse programming provided by public broadcasting.
    These programs are available through both TV and radio, and most, 
if not everyone in this room, has likely watched or listened to a 
program produced by a public broadcasting station like PBS or NPR. The 
Corporation for Public Broadcasting is responsible for supporting these 
stations and ensuring that the programming is available to the general 
public.
    The nominees today have been selected to perform a vital role as 
members of the Board of Directors of CPB. I know a few of them already 
have experience on this board, and I thank them for their continued 
willingness to serve. To the rest, I also thank them and I look forward 
to hearing from them.

    Senator Stevens. Thank you.
    The Chairman. Senator Hutchison? Senator Hutchison, do you 
want to question Senator Pryor?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I was just trying to find out exactly 
what--where you were because I was late. Has everyone made 
opening statements or not made opening statements?
    The Chairman. You may make your opening statement.
    Senator Hutchison. Just wanting to know what your format 
is. Have they made opening statements yet?
    The Chairman. Yes.
    Senator Hutchison. OK. Well, let me just say--and David, it 
is great to see you again, and all of you here who are 
nominated for the Board--it is such an important Board for our 
country. And while many people, we have so many choices on 
channels now, there is no channel that gives programming for 
young children like the Corporation for Public Broadcasting.
    It is the one that you can rely on that will be educational 
and appropriate, and I am not going to ever have to worry about 
hearing words that I won't let my children use. I don't ever 
have to worry about violence or people not treating each other 
with respect, which you do find on other ``cartoon channels.''
    So I appreciate that, and when we are into the question 
period, I just will ask if everyone is committed to continuing 
wholesome, educational programming for children because there 
is no alternative out there for that.
    And then second, I think the outreach that the CPB does in 
our communities in the Ready To Learn program for literacy for 
ages 2 through 8, which has even won an award from the 
Department of Education, is also another major achievement.
    And the news, Jim Lehrer is still just the greatest at 
providing in-depth news analysis and coverage and interviews. 
He does a super job. McNeil/Lehrer was one of my favorites for 
years, and now Jim Lehrer has just continued to provide that 
kind of in-depth backup news that we wouldn't get other places.
    So I thank you all for being willing to serve, every one of 
you. I have read your qualifications, and I think you are an 
excellent mix of our great Nation. And so, I applaud it.
    And Mr. Chairman, thank you for--I think you have already 
said that we are going to have a markup off the floor to allow 
these nominees to go forward. Is that correct?
    The Chairman. We will do our best.
    Senator Hutchison. Oh, OK. Well, I hope we will because if 
we can have the confirmation off the floor so that they can 
move forward, I think it would be a great asset for our 
country.
    So thank you very much.
    The Chairman. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Mr. Chairman, I don't have any questions for 
our nominees, but I do want to thank them for their willingness 
to serve and, in some cases, to re-up and do another term. We 
have got some wonderful people with some great resumes and a 
wealth of experience and knowledge that they can bring to these 
positions.
    And so, I know that public service is a calling, and I 
appreciate anybody who is willing to do it when there are lots 
of other demands on their time. And so, I appreciate very much 
the service of our nominees and look forward to moving those 
nominations fairly quickly and appreciate your all being here 
today. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    And now I would like to call upon a member of the CPB who 
is up for reappointment, the Honorable Cheryl Feldman Halpern.

           STATEMENT OF HON. CHERYL FELDMAN HALPERN,

                  MEMBER, BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Ms. Halpern. Thank you.
    Chairman Inouye, Senator Hutchison, and distinguished 
Members of this Committee, I appreciate the opportunity to 
address the Committee and for your consideration of my 
nomination to serve a second term on the Board of the CPB.
    My time at the CPB has been among the most fulfilling of my 
years of involvement in public service. A commitment that has 
included service on the Boards for International Broadcasting, 
Broadcasting Board of Governors, the Foundation for the Defense 
of Democracies, the President's Advisory Council of Barnard 
College, and the Women's Democracy Network.
    Since 2002, I have served on the Board of CPB, and I was 
also privileged to be elected by my Board colleagues to serve 
two terms as Chair. I wanted to take this opportunity to talk 
about my work on the CPB Board in particular. As you know, the 
board is charged with overseeing compliance with the laws and 
regulations governing the corporation and the use of public 
broadcasting funds.
    CPB's Board has extensive oversight over matters related to 
budgetary controls and governance. We give the CPB staff broad 
policy guidance, consistent with the directives of the law, but 
the Board has no role in individual program decisions.
    Shortly after my becoming Chairman, the Board received the 
findings and recommendations of the CPB's Office of the 
Inspector General, published in November 2005. As soon as we 
received the OIG's recommendations, we moved to act 
deliberately and effectively. A comprehensive review of the 
governance and internal operations of the corporation followed, 
and we call this review ``Project Champion.''
    For the first time in CPB's 40-year history, we initiated a 
top-to-bottom review of its operations and procedures. Never 
before had our organization undertaken a major examination of 
every task, operation, and practice to ensure that CPB is 
following best practices and promoting accountability.
    We needed to establish a tone from the top based on 
integrity, ethical values, and clear assignments of authority 
and responsibility, which are critical to the success of any 
organization. Thus, the Board established a Corporate 
Governance Committee currently chaired by one of our Board 
members and one of your former colleagues, Senator David Pryor, 
and as well as an Executive Compensation Committee.
    As part of Project Champion, the Board also implemented a 
new code of ethics and a conflict of interest policy for 
directors, clarified board and CEO roles and responsibilities, 
committed to transparent actions during board meetings, 
prevented the use of political tests and employment decisions, 
adopted a whistleblower policy, adopted new expense guidelines, 
and committed to a revision of its role in CPB contracting.
    I am proud that in my time as chair we made these 
significant revisions to our governance procedures, established 
more clearly defined roles and responsibilities for the Board 
Chair and for the CPB President and CEO. In addition, the 
Board, under my tenure as Chair and since, has committed to 
holding more meetings outside of Washington, D.C. This allows 
us to see for ourselves how America's public television and 
radio stations are, in fact, serving these local public 
audiences.
    There is an old public broadcasting saying. ``When you have 
seen one public broadcasting station, you have seen one public 
broadcasting station.'' My fellow Board members' and my 
experiences certainly reflect that sentiment. In the past few 
years, we have individually and as a Board visited stations 
across the country. Every station we have visited is unique, 
with its own history, its own challenges, and its own 
understanding of its place in the community.
    These visits offer us valuable opportunities to connect 
with public broadcasting where it happens and to learn from the 
men and women who work every day to bring their communities not 
only the programming, but also the outreach, the online 
services, and the opportunity for community engagement that set 
public broadcasting apart.
    To give just one example, on our trip to Hawaii, where we 
visited with you, Mr. Chairman, we learned how the islands that 
make up the state use public broadcasting for emergency 
preparedness, for promoting literacy, and for celebrating the 
state's diverse and special culture.
    We are also working to raise public awareness of the 
excellence in our programming. I am proud to currently serve 
the Board as its Chairman of the Public Awareness Committee, 
which carries forward this work on an ongoing basis.
    By reaching out to local station boards, conducting station 
visits, working to educate opinion leaders and elected 
representatives, and doing regular outreach, we are making 
ourselves effective goodwill Ambassadors on behalf of all 
public broadcasters. We strive to give voice to a simple 
message. Public broadcasting is our source for quality 
programming across the entire spectrum of possibility.
    All of these efforts bear the imprint and reflect the hard 
work of a dedicated staff and board. My goal as a member of the 
Board has been, and I hope will continue to be, to responsibly 
serve as a fiduciary for public broadcasting as mandated by 
Congress.
    Thank you again, Mr. Chairman and distinguished Members of 
the Committee, for inviting me to testify today. And I would be 
happy to answer any questions you might have.
    [The prepared statement and biographical information of Ms. 
Halpern follows:]

  Prepared Statement of Hon. Cheryl Feldman Halpern, Member, Board of 
             Directors, Corporation for Public Broadcasting

    Chairman Inouye, Senator Hutchison, and Members of this Committee, 
thank you for this opportunity to address the Committee and for your 
consideration of my nomination to serve a second term on the Board of 
the CPB.
    My time at CPB has been among the most fulfilling during the years 
of my involvement in public service--a commitment that has included 
service on the Boards for International Broadcasting, the Broadcasting 
Board of Governors, the Foundation for the Defense of Democracies, the 
President's Advisory Council of Barnard College, and the Women's 
Democracy Network. Since 2002, I have served on the Board of CPB, and I 
was also privileged to be elected by my board colleagues to serve two 
terms as Chair.
    I wanted to take this opportunity to talk about my work on the CPB 
Board in particular. As you know, the Board is charged with overseeing 
compliance with the laws and regulations governing the Corporation and 
the use of public broadcasting funds. CPB's Board has extensive 
oversight over matters related to budgetary controls and governance. We 
give the CPB staff broad policy guidance, consistent with the 
directives of the law, but the Board has no role in individual program 
decisions. Shortly after my becoming Chairman, the Board received the 
findings and recommendations of CPB's Office of the Inspector General 
(OIG), published in November 2005.
    As soon as we received the OIG's recommendations, we moved to act 
deliberately and effectively. A comprehensive review of the governance 
and internal operations of the Corporation followed; we call this 
review Project Champion.
    For the first time in CPB's 40-year history, we initiated a top-to-
bottom review of its operations and procedures. Never before had our 
organization undertaken a major examination of every task, operation 
and practice to ensure that CPB is following best practices and 
promoting accountability.
    We needed to establish a ``tone from the top'' based on integrity, 
ethical values, and clear assignments of authority and responsibility, 
which are critical to the success of any organization. Thus the Board 
established a Corporate Governance Committee, currently chaired by one 
of our Board members and one of your former colleagues, Senator David 
Pryor, and an Executive Compensation Committee.
    As part of Project Champion, the Board also implemented a new code 
of ethics and a conflict of interest policy for directors; clarified 
board and CEO roles and responsibilities; committed to transparent 
actions during board meetings; prevented the use of political tests in 
employment decisions; adopted a whistleblower policy; adopted new 
expense guidelines; and committing to a revision of its role in CPB 
contracting.
    I am proud that in my time as Chair, we made these significant 
revisions to our governance procedures, established more clearly 
defined roles and responsibilities for the Board Chair and for the CPB 
President and CEO, and improved accountability and transparency in the 
operations of our organization.
    In addition, the Board, under my tenure as Chair and since, has 
committed to holding more meetings outside of Washington, D.C. This 
allows us to see for ourselves how America's public television and 
radio stations are in fact serving these local public audiences. 
There's an old public broadcasting saying that ``when you've seen one 
public broadcasting station, you've seen one public broadcasting 
station.'' My fellow Board members' and my experiences certainly 
reflect that sentiment. In the past few years we have, individually and 
as a Board, visited stations in Alaska, Arkansas, Arizona, California, 
Florida, Hawaii, Louisiana, Mississippi, Montana, New Jersey, New York, 
North Dakota, Pennsylvania, Puerto Rico and West Virginia. Every 
station we have visited is unique, with its own history, its own 
challenges, and its own understanding of its place in its community.
    We have taken every opportunity to meet with station managers, 
staff and members of station boards of directors. Through these visits 
we have been able to see firsthand the role that public broadcasting 
plays in linking people and their communities with ideas, information 
and the resources they need in order to address communal concerns and 
create positive change.
    These visits offer us valuable opportunities to connect with public 
broadcasting where it happens, and to learn from the men and women who 
work every day to bring to their communities not only the programming, 
but also the outreach, the online services, and the opportunities for 
community engagement that set public broadcasting apart.
    To give just one example, on our trip to Hawaii, where we visited 
with you, Mr. Chairman, we learned how the islands that make up the 
state use public broadcasting for emergency preparedness, for promoting 
literacy, and for celebrating the state's diverse and special culture.
    We are also working to raise public awareness of the excellence in 
our programming. I am proud to serve the Board currently as its 
Chairman of the Public Awareness Committee, which carries forward this 
work on an ongoing basis. By reaching out to local station boards, 
conducting station visits, working to educate opinion leaders and 
elected representatives, and doing regular outreach, we are making 
ourselves effective good will Ambassadors on behalf of all public 
broadcasters. We need to continue to engage the larger public 
audience--not just PBS viewers and NPR listeners--but those who simply 
do not know about the excellence that exists every day on America's 
public broadcasting stations. We strive to give voice to a simple 
message: public broadcasting is ``My Source'' for quality programming 
across the entire spectrum of possibility. As I have often said, we 
need to share our pride in public broadcasting.
    All of these efforts bear the imprint and reflect the hard work of 
a dedicated staff and board. I can say that I have learned much during 
the course of my service on the CPB Board; whether it was in the 
preparation of the Board's response to the OIG's review, the creation 
of Project Champion, the positive interaction resulting from bringing 
our meetings to the communities across America or the enthusiasm for 
the Public Awareness Initiative. My goal as a member of the Board has 
been, and I hope, will continue to be, to responsibly serve as a 
fiduciary for public broadcasting as mandated by Congress. Thank you 
again, Mr. Chairman and Members of the Committee, for inviting me to 
testify today. I would be happy to answer any questions you might have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (include any former names or nicknames used): Cheryl Miriam 
Feldman Halpern (nee Feldman).
    2. Position to which nominated: Director, Corporation for Public 
Broadcasting (re-nomination).
    3. Date of nomination: June 3, 2008 (re-nomination).
    4. Address (list current place of residence and office addresses).

        Residence: Information is not available to public.

        Office: Corporation for Public Broadcasting, 1401 Ninth Street, 
        N.W., Washington, D.C. 20004-2129.

    5. Date and place of birth: November 20, 1954; New Haven, CT.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage.

        Spouse: Frederick Michael Halpern, Real Estate Developer, 
        Partner, Atlantic Realty, 1190 Woodbridge Center Drive, 
        Woodbridge, NJ 07095; children: Yonina Halpern Gomberg, age 29; 
        Maiera Halpern Werthenschlag, age 26; Alexander Halpern, age 
        23.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Barnard College, 1975, B.A.
        NYU Graduate School of Business Administration, 1980, MBA 
        Finance.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

------------------------------------------------------------------------
  Date of Employment         Employer/Address              Title
------------------------------------------------------------------------
Aug. 2002--Present      Corporation for Public     Director
                         Broadcasting
------------------------------------------------------------------------
Sept. 2000--Present     FCYMA/H, LLC               Member
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
Nov. 1999--Present      Mountain Ledge Investors,  Member
                         LLC
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
1998--Present           Peppermint Spice, LLC      Member
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
Sept. 1995--2002        Broadcasting Board of      Member
                         Governors
                        Washington, D.C. 20036
------------------------------------------------------------------------
April 1992--Present     Integrated CFH             Partner
                         Associates, G.P.
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
Dec. 1988--Present      Then As Now, L.P.          Partner
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
Oct. 1990--August 1995  Board for International    Member
                         Broadcasting
                        Washington, D.C. 20036
------------------------------------------------------------------------
May 1988 -1996          Porcupine Enterprises,     Secretary-Treasurer
                         Inc.
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------
1984-1997               CFYM Associates, Inc.      President
                        Livingston, New Jersey
                         07039
------------------------------------------------------------------------

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Not applicable.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

------------------------------------------------------------------------

------------------------------------------------------------------------
National Women's Committee of          Honorary Chairman
 Republican
  Jewish Coalition
Washington Institute for Near East     Lifetime Trustee
 Policy
International Republican Institute     Member of Board
Barnard College                        President's Advisory Council
                                        Member
Jewish Policy Center                   Trustee
Queen of Sheba Foundation              Chairman
Foundation for Defense of Democracies  Member of Board
Corporation for Public Broadcasting    Director, Chairman
Mountain Ledge Investors, LLC          Member
Peppermint Spice, LLC                  Member
Integrated CFH Associates, GP          Partner
Then-As-Now, LP                        Partner
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent, or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    To the best of my knowledge, none restrict membership on any of the 
listed bases.
    I am interpreting ``membership'' broadly and have attempted to 
include the organizations in which I am called a ``member'' by virtue 
of having made contributions.

------------------------------------------------------------------------

------------------------------------------------------------------------
Republican Jewish Coalition (RJC)         National Chairman (1993 to
                                           2001); Member of Board of
                                           Directors
                                          National Women's Committee,
                                           Honorary Chairman (10/07 to
                                           present)
B'nai B'rith International                Chairman, U.N. Affairs
                                           Committee (1998 to 1992).
                                          Life Member
Joseph Kushner Hebrew Academy             Member, Board of Education
                                           (Resigned); Board of Trustees
                                           (Resigned)
Anti-Defamation League                    Member, Regional Advisory
                                           Board
Beaver Creek Club                         Member
Capitol Hill Club                         Member
Carnegie Club                             Member (1998 to present)
N.J. Israel Commission                    Member (1989 to 2001)
Lexington Institute Board of Trustees     Member (No longer serving)
Washington Institute for Near East        Lifetime Trustee
 Policy
The Hudson Institute
Business Executives for National
 Security
National Committee on American Foreign
 Policy
American Horse Show Association           Life Member
Central N.J. Home for the Aged            Life Member
AMIT Women                                Life Member
The Friendship Circle
Simon Wiesenthal Center                   International Leadership
                                           Council Member
Holocaust Resource Foundation
Young Israel of Bal Harbor and Surfside
The Shul
Synagogue of the Suburban Torah Center
Congregation B'Nai Vail
Jewish-Americans for Franks               Co-Chairman (8/14/00 to 11/00)
                                           (No longer exists)
Bionexus Foundation                       Director (Inactive since 5/00)
International Republican Institute        Member of Board (9/99 to
                                           present)
Women's Democracy Network
American Heart Association
Essex County Ritualarium
Barnard College                           President's Advisory Council
                                           Member
Garden State Arts Center Foundation
Congregation B'Nai Joseph DME
International Fellowship of Christians
 and Jews
North American Jewish Forum
Institute of Semitic Studies, Princeton
 University
Vail Valley Foundation
American Israel Public Affairs Committee
Jewish Institute for National Security
 Affairs
American Cancer Society
Weizman Institute of Technology
Jewish Educational Center
The Frisch School
Jewish National Fund
American Red Magen David for Israel
Commonwealth Jewish Trust
Yeshiva University
Dorot
Meals on Wheels
Yad Vashem
American--Israel Foundation
Jewish Policy Center                      Trustee
Rabbinical College of America
NCSY
Orthodox Union
Empower America
NORPAC
Bikur Cholim of Rockland County
Project Mercy
Stern College for Women of Yeshiva
 University
American Friends of Shaare Zedek Medical
 Center
Queen of Sheba Foundation                 Chairman (1/07 to present)
Sesame Workshop
Foundation for Defense of Democracies     Member of Board (2005 to
                                           present)
Words Can Heal Organization
Meir Panim
Music Cares Foundation
Broadway Cares Equity Fights AIDS
NJN Foundation
Friends of WNET
Friends of WBGO
Friends of WNYC
Bayith Lepleitot
Seeds of Peace
Robin Hood Foundation
Republican Regents
National Republican Senatorial Committee
Republican Governor's Association
Republican Majority for Choice
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt?
    Yes. For positions on Board for International Broadcasting, 
Broadcasting Board of Governors, Board of Corporation for Public 
Broadcasting. No outstanding debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500.00 or more for the past 10 years. Also, list al offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    This information is retained in Committee files.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

------------------------------------------------------------------------

------------------------------------------------------------------------
10/2007                       Award for Excellence, National Women's
                               Committee, Republican Jewish Coalition
------------------------------------------------------------------------
6/2006                        New Jersey Network Distinguished Public
                               Service Award
------------------------------------------------------------------------
3/2005                        In Celebration of Women's History Month,
                               Honored by the Essex County Board of
                               Freeholders for ``Her Outstanding Career
                               in Broadcasting, Her Civic Involvement
                               and Advocacy on Behalf of Women's Rights,
                               and for Embodying the Spirit and
                               Accomplishments of Women Everywhere''
------------------------------------------------------------------------

    16. Please list each book, article, column, or publication you have 
authored, individually, or with others. Also, list any speeches that 
you have given on topics relevant to the position for which y u have 
been nominated. Do not attach copies of these publications unless 
otherwise instructed.
Speaking Engagements
        ``Maximizing the My Source Platform in Your Community,'' My 
        Source Public Awareness Initiative Conference, Chantilly, 
        Virginia (03/08).

        Jeane K. Kirkpatrick Memorial Award Dinner, Women's Democracy 
        Network, Washington (03/08).

        CPB Chairman--Spoken at Public CPB Meetings in Alaska, Arizona, 
        Hawaii, Hopi Reservation, Mississippi, North Dakota, 
        Pennsylvania, Puerto Rico and Washington, D.C.

        Emma Bowen Scholars, Public Service Media Workshop, Washington, 
        D.C.

        ``The Uses of Media: Information and Dis-Information,'' 
        Foundation for Defense of Democracies, Freeport, Bahamas (05/
        07).

        ``Children's Literacy,'' ``Between The Lions,'' Mississippi 
        Public Broadcasting, Jackson, Mississippi (02/07).

        ``Challenges and Opportunities For Women In Politics And 
        Governance In The Middle East And North Africa,'' Women's 
        Democracy Network, Amman, Jordan (02/07).

        ``Developing Public Awareness,'' Major Giving Initiative 
        Conference, Lansdowne, Virginia (07/06).

        Presentation of Edward R. Murrow Award, New Orleans, Louisiana 
        (07/06).

        ``Codes Of Conduct And Deontology Of The Global Media,'' MEDEA 
        Conference, Brussels, Belgium (05/06).

        ``Holocaust Heroes,'' Premier of the New Jersey Network's ``The 
        Hidden Child'' (04/06).

        ``Children And Cyberhate,'' American Committee for Shaare Zedek 
        Medical Center, New York, New York (02/06).

        ``Electronic Anti-Semitism,'' International Council of Jewish 
        Parliamentarians, Jerusalem, Israel (01/06).

        ``Children of Jerusalem: Painting Pain Dreaming Peace,'' (11/
        05).

        Christine Todd Whitman Excellence in Public Service Series 
        ``Donor Relations'' and ``Grass Roots Outreach,'' 2004.

        ``The Media And Anti-Semitism,'' OSCE Conference on Anti-
        Semitism, Vienna, Austria (06/03).

        ``Your Soul Investment--Community Service,'' B'Nai B'rith Forum 
        on Public Policy, Baltimore, Maryland (02/03).

        ``U.S. International Broadcasting: Challenges and Opportunities 
        in the Middle East, Iran and China,'' USC Annenberg School for 
        Communication (10/02).

        ``The Role of the Media in Covering Conflict,'' Voice of 
        America, Jakarta, Indonesia (07/01).

        ``Jewish Women In The Political Process,'' Panel discussion, 
        National Institute for Jewish Leadership (06/27/01).

        ``50 Anniversary of Voice of America Transmission From Tangier, 
        Morocco,'' Speech (03/08/00).
Articles
        ``Our Energy Security is Our National Responsibility,'' by 
        Cheryl Halpern and Michael David Epstein, New Jersey Jewish 
        News (03/14/02).

        ``Bush Offers Fresh Start, New Promise for Education'', by 
        Cheryl Halpern and Matthew Brooks, New Jersey Jewish News (02/
        01/01).

        ``Bush, Goldsmith And the Faith-Based Policy,'' Letter to 
        Editor, Forward (02/16/01).

        ``Azerbaijan's Support the Kind That Muslim States Should 
        Emulate,'' by Cheryl Halpern and Jason Epstein, New Jersey 
        Jewish News (11/08/01)

        ``Encouraging Muslim Moderation,'' by Cheryl Halpern and Jason 
        Epstein, Forward (11/16/01).

        ``Put Syria Back on Drug List,'' Letter to Editor, Jewish Voice 
        (December 1997).

        ``School Vouchers Give Parents More Power to Choose,'' by 
        Cheryl Halpern and Matthew Brooks, New Jersey Jewish News (10/
        16/97).

        ``Look Again--President Clinton Is No Friend of Israel,'' by 
        Max Fisher, Cheryl Halpern, and Matthew Brooks, The Jewish News 
        (04/03/97).

        ``In Congress Jews Should Trust the Republicans,'' by Richard 
        Fox, Cheryl Halpern and Sheldon Kamins, The Jewish News (10/17/
        96).

        ``The Republicans' Actions Speak Louder Than Words,'' by Max 
        Fisher and Cheryl Halpern, Washington Jewish Week (10/11/96).

        Salute to the Republican Congress, Speech (08/14/96).

        ``Nevertheless'', Letter to the Editor, Washington Jewish Week 
        (01/26/96).

        Women's Rights: A Perspective on Beijing, Conference (11/15/
        95).

        ``Jewish Community Should Effect Change,'' ``Swing To GOP?'', 
        by Max Fisher and Cheryl Halpern (10/94).

        ``Reflections On the Accord,'' NJC Bulletin (9/93, 10/93).

        ``George Bush Kept Promises, Has Been Tested In Crisis,'' by 
        Max Fisher, George Klein and Cheryl Halpern, The Jewish 
        Standard, The Jewish News (10/92).

        ``Convention Was A Great Success In Eyes Of Jewish 
        Republicans,'' by Cliff Sobel and Cheryl Halpern, The Jewish 
        News (8/92).

        ``In Praise of Quayle,'' by Cheryl Halpern and Elliot Felig, 
        Letter to Editor, The Jewish News (5/89).

        ``Dodd & Weicker Should Stop Meddling In The Israel Issue,'' 
        Letter to Editor, New Haven Register (04/88).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.




03/21/07                      Testimony as Chairman of CPB Board of
                               Directors, Subcommittee on Labor, Health
                               and Human Services, Education and Related
                               Agencies, U.S. House Committee on
                               Appropriations.
11/04/03                      Confirmation hearing for appointment to
                               CPB Board Senate Committee on Commerce,
                               Science and Transportation.
07/20/95                      Testimony before U.S. Senate Committee on
                               Foreign Relations, Official Hearing to be
                               a member of the Broadcasting Board of
                               Governors.


    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served on the boards of the Board of International 
Broadcasting, the Broadcasting Board of Governors, and the Corporation 
for Public Broadcasting (CPB). I was Chairman of the Board of the CPB 
for two terms of office. Therefore, I have experience in U.S. 
Government funded broadcasting. More specifically, in 1990, I was 
nominated by President Bush and confirmed by the Senate to serve on the 
Board for International Broadcasting (the ``BIB''). In 1995, when the 
BIB ceased to exist due to congressional legislation, I was the only 
carryforward to serve n the Broadcasting Board of Governors. I was 
subsequently re-nominated by President Clinton and confirmed by the 
Senate. In 2002, I be an my service on the Board of the CPB. I have 
served on the CPB Board of Directors for the past 6 years, and as 
Chairman of the Board for the last 2 years (October 2005-October 2007). 
During my tenure as Chairman, we initiated a complete overall and 
reform of CPB's governance and internal control procedures, we began an 
initiative to increase awareness of the value and service that public 
broadcasting offers Americans across our country, and I personally made 
sure that our board traveled round America to view public broadcasting, 
not in the reports and ane dotes received in Washington, D.C., but 
beyond the beltway in stat s like Alaska, Mississippi, Hawaii, North 
Dakota and Arizona.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing large 
organization?
    Members of the Board of Directors, both individually and 
collectively as a governing body, are responsible for ensuring that the 
Corporation's officers observe prudent management and accounting 
practices. This is achieved through an effective system of internal 
controls, approved by the Board, which include systematic reporting 
requirements. As Chair of the CPB Board, I initiated and oversaw 
``Project Champion,'' a comprehensive reform of CPB's governance and 
internal controls following the Inspector General's November 2005 
investigative report. That multi-year effort led to the adoption of a 
broad range of ``best practices", patterned on Sarbanes-Oxley and other 
safeguards, which have made the work of CPB more transparent and 
effective.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    A major challenge facing the public broadcasting industry and, by 
extension, the CPB, is maintaining and expanding its service to the 
American people during the transition from analog to digital 
broadcasting. With respect to television, CPB's most immediate task is 
to ensure hat the public television audience continues to be served by 
their stations after the February 17, 2009 deadline for analog shutoff. 
As such, in allocating its special digital appropriation provided by 
Congress, CPB has made its highest priority investment in the 
transmission and related equipment needed to help stations meet the 
transition. While not facing a date-certain shutoff, public radio 
stations are leading the way in adopting this new digital technology. 
This will allow them to enhance the quality and scope of services they 
provide to their communities, as well as to provide their listeners 
with richer quality sound than is currently available.
    Another challenge I would point to is that of ensuring public 
broadcasting's leadership in children's and educational programming in 
a fast-changing media landscape. Education is a core value of the 
public broadcasting community, as it has been since its inception. This 
fact is underscored by the results of a comprehensive CPB-commissioned 
survey of public television stations, which documents the educational 
services stations are providing directly to their communities. These 
services, which extend beyond the broadcast, range from helping to 
ensure that low-income children arrive at school ``ready to learn''; 
special in-person reading programs for parents and childcare providers; 
to professional development resources for teachers; to online 
activities designed to spark student learning in subjects such as 
science and math. As a current CPB Board member, and a nominee to 
continue my service on this Board, I am committed to doing all I can to 
sustain the robust and vital contribution public broadcasting stations 
make when it comes to education and an informed and strengthened civil 
society.
    A third challenge which we have begun to address is that of 
increasing the American people's awareness of the breadth and depth of 
the services that public broadcasting has to offer and the value that 
public broadcasting brings to American society and local communities. 
From the bricks and mortar of station facilities in hundreds of 
communities across the country to thousands of hours of community 
service programming, including millions of dollars of investment in 
education and beyond-the-broadcast community engagement activities, the 
public media enterprise connects citizens to their local communities 
and is, simply put, a national treasure. As Chair of the CPB Board's 
Public Awareness Committee, I believe that to preserve that treasure, 
it is essential that the American public, who have supported public 
broadcasting with their tax dollars, be made aware to the full extent 
of how public media enhances lives and enriches communities.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: Not applicable.
    2. Do you have any commitments or agreements, formal or info mal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have already signed and provided to the CPB's Senior Vice 
President and General Counsel a recusal letter confirming that I would 
refrain from participating in any covered transaction between CPB and 
any of the following entities in which I hold passive investments: 
Comcast Corp.; Linkton, Ltd.; Netlease.com; Time-Warner Cable; and 
Time-Warner, Inc.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have served as Chairman and then on the Legislative Committee of 
the Republican Jewish Coalition. In those capacities, I have been 
involved in communicating the concerns of the Jewish community.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your response to the above 
items.
    If I become aware of a potential conflict of interest. I 
immediately will consult with the counsel to the Corporation for Public 
Broadcasting and any other assigned ethics officer and will take 
appropriate steps to address the conflict issue in a manner completely 
satisfactory to counsel and the ethics officer, including recusal where 
appropriate.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: Not to my knowledge.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was a plaintiff in the C.F.Y.M Associates, Inc., a New Jersey 
Corporation and Cheryl Halpern v. Andrew Philbrick d/b/a Hunter Farms, 
Ltd. and Cynthia Webber matter, Civil Action No: 87-2713 (REC), United 
States District Court for the District of New Jersey, commenced July 8, 
1987; resolved by entry of Stipulation and Order of Settlement on 
September 25, 1987 and Supplemental Stipulation and Order of Settlement 
on October 23, 1987.
    I was a defendant in Ernest E. Pell v. RFE/RC, Inc., et al., Civil 
Action No: 94-2290 JR, United States District Court for the District of 
Columbia dismissed as against me by Order filed March 26, 1995.
    4. Have you ever been convicted (including please of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      Resume of Cheryl F. Halpern
CPB Board Member
    Cheryl Halpern has a long record of public service in broadcasting, 
women's issues, education, and international affairs.
    Mrs. Halpern has been nominated to the boards of both national and 
international public broadcasting organizations by Presidents George 
H.W. Bush, Bill Clinton and George W. Bush.
    In 1990, Mrs. Halpern was confirmed as a member of the Board for 
International Broadcasting and as a Director of Radio Free Europe/Radio 
Liberty (RFE/RL). From 1995 through 2002, she served on the 
Broadcasting Board of Governors (BBG) overseeing Voice of America, 
Radio and TV Marti, RFE/RL, Worldnet, Radio Free Asia and Radio Free 
Iraq. While serving on the BBG she helped create Radio Sawa, America's 
Arabic radio service to the Middle East. In August 2002, Mrs. Halpern 
was appointed by President George W. Bush to serve as a director of the 
Corporation for Public Broadcasting (CPB). In September 2005, she was 
elected to be chairman of the CPB.
    As a Presidentially-appointed U.S. delegate to the OSCE Conference 
on Anti-Semitism in 2003, Mrs. Halpern spoke before the plenary council 
on children's programming and textbook development. She has supported 
the development of ``Sesame Stories,'' a program produced by the Sesame 
Workshop for Israeli, Jordanian and Palestinian children. In 2005 she 
helped bring the exhibit ``Children of Jerusalem Painting Pain, 
Dreaming Peace'' to the Palace of Westminster in London.
    Mrs. Halpern was a delegate from the Coordinating Board of Jewish 
Organizations to the 4th United Nations World Conference on Women's 
Rights in 1995 in Beijing. In April 2005, she participated in the Iraqi 
Women's Educational Institute conference in Jordan and addressed the 
importance of developing democratic values through education. In 2006 
she became a member of the Women's Democracy Network.
    Mrs. Halpern's civic involvement includes participation on the 
boards of the Foundation for the Defense of Democracies, the 
President's Advisory Council of Barnard College and the International 
Republican Institute. She also chaired the character education program 
of the Words Can Heal organization, a national campaign to curb gossip, 
fight verbal abuse and promote ethical speech.
    In March 2005, she was honored by the Essex County (New Jersey) 
Board of Chosen Freeholders for ``her outstanding career in 
broadcasting, her civic involvement and advocacy on behalf of women's 
rights, and for embodying the spirit and accomplishments of women 
everywhere.'' In May 2006, she received from the New Jersey Network the 
Littell Award for distinguished public service.
    Mrs. Halpern has an M.B.A. with a concentration in finance from New 
York University. She completed her undergraduate studies at Barnard 
College of Columbia University. Mrs. Halpern lives in New Jersey with 
her husband Fred.

    The Chairman. Thank you very much, Ms. Halpern.
    And may I now recognize Mr. Bruce M. Ramer?

                  STATEMENT OF BRUCE M. RAMER,

             MEMBER-DESIGNATE, BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Mr. Ramer. Thank you, Mr. Chairman.
    Chairman Inouye, Ranking Member Hutchison, and 
distinguished Members of the Committee, first let me express my 
gratitude for your holding this hearing, especially at this 
time when the Committee's schedule is so full with so many 
pressing issues.
    And of course, I do want to thank the President for 
nominating me to serve on the Board of the Corporation for 
Public Broadcasting.
    I am very excited at the prospect of having the opportunity 
of serving CPB and of having the opportunity to help advance 
the cause of public broadcasting in the public interest--a 
cause with which I have been deeply involved and committed for 
some 25 years--and to do everything I possibly can to 
strengthen it.
    I have long understood that public broadcasting is one of 
our country's most important community assets. I would say it 
was a jewel in the crown of our community assets. And as an 
American, I am very proud of what public broadcasting 
accomplishes across our Nation.
    My involvement with public broadcasting began in 1992, when 
I joined the Board of Directors of KCET, the PBS affiliate 
covering Southern California. I served as Chairman of that 
Board from 2001 to 2003, and other than a brief mandatory 
hiatus, I have been on the Board ever since. At this time, I 
serve on the Executive Committee, I chair the Programming 
Committee, and I am a member of the Audit Committee.
    And I have come--during this time, I have come to 
understand better the relationship between CPB and PBS and 
something of the nuances of that relationship. I should note 
that, if confirmed, I will, of course, recuse myself if any 
conflict should arise between CPB and KCET or in connection 
with any other entity with which I may be involved either as an 
attorney or otherwise.
    Public broadcasting fills a crucial need in our country by 
providing programming which might not otherwise see the light 
of day on commercial or pay television, programming such as 
that designed for our children, for caregivers, for 
preschoolers, and of special note, for all the elements of our 
increasingly diverse population. Programming which can be 
received by the 15 percent or so of our population which relies 
on free over-the-air broadcasting.
    At KCET, I saw how public television comes to grips with 
many of these issues, how local as well as national interests 
are served. In my written testimony submitted to the Committee, 
there are some examples of this. But I will omit them now in 
the interest of brevity.
    I do want to add, however, that my belief in the power and 
accomplishments of public radio is equally strong, and I look 
forward to expanding my knowledge of the shape of this medium 
today and its opportunity to grow in the future.
    But please let me comment briefly on the importance of 
CPB's community service grants. CSGs, as you know, are 
unrestricted grants to stations. They permit stations to turn 
on the lights. They permit stations to operate. They permit 
stations to pay salaries and for public television stations to 
help pay PBS dues and to acquire programming. They are crucial. 
They are indispensable.
    My day job as an entertainment lawyer for most of my career 
also deals with communication and the media. This gives me an 
additional perspective and insights, which can be helpful if I 
am permitted to serve CPB.
    My interest in communications goes back to my college days 
and now includes service on the Board of Counselors and as Co-
Executive Chair of the Executive Committee of the USC Annenberg 
School for Communications. This Board further exposes me to the 
current and future needs and requirements of broadcasting, 
journalism, and the media.
    My law practice and my involvement with both the Annenberg 
School and KCET have helped to educate me about new and 
evolving media and the changing media landscape. There may be 
an even greater future for public broadcasting if it can seize 
the advantages of these new technologies.
    Other community involvements of mine, which range from 
having served as National President of the American Jewish 
Committee to membership on the Board of Trustees of the 
University of Southern California, Pacific Council for 
International Affairs, and the Herrhausen Institute for 
International Dialogue of the Deutsche Bank, will also help me 
to contribute more meaningfully to CPB if I am confirmed.
    And if I am confirmed, it is my hope to be part of a team 
strengthening an evolving public broadcasting system and its 
work in the communities across our country. I am committed to 
do all that I can to enhance the already high quality of public 
broadcasting for our citizens and to work toward even wider 
diversity of programming, be it news, education, information, 
or entertainment, always with the singular purpose of serving 
the interests of the American public.
    My commitment is passionate and deep. I hope to have the 
opportunity to serve my country and public broadcasting by 
being confirmed as a member of the Board of the Corporation for 
Public Broadcasting. And I thank you, Mr. Chairman and Members 
of this Committee, for the opportunity for making this 
presentation and look forward to answering any questions you 
may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Ramer follow:]

        Prepared Statement of Bruce M. Ramer, Member-Designate, 
        Board of Directors, Corporation for Public Broadcasting

    Chairman Inouye, Ranking Member Hutchison and Members of the 
Committee, let me express my gratitude for your holding this hearing, 
especially at this time when the Committee's schedule is so full with 
many pressing issues. And, naturally, my thanks to the President for 
nominating me to serve on the Board of the Corporation for Public 
Broadcasting.
    I am excited at the prospect of having the opportunity of serving 
CPB, of having the opportunity to help to advance the cause of public 
broadcasting in the public interest--a cause with which I have been 
deeply involved and committed for some 25 years--and to do everything I 
possibly can to strengthen it.
    I have long understood that public broadcasting is one of our 
country's most important community assets. As an American, I am very 
proud of what public broadcasting accomplishes across our nation.
    My involvement with public broadcasting began in 1992 when I joined 
the Board of Directors of KCET, the PBS affiliate in Los Angeles 
covering Southern California. I served as Chairman of that Board 
between 2001 and 2003, and other than a one-year mandatory hiatus, I 
have been on the Board continuously. At this time, I serve on its 
Executive Committee, as Chair of its Programming Committee and as a 
member of the Audit Committee. In this time, I have come to understand 
better the relationship between PBS and CPB, and something of the 
nuances of that relationship.
    (I should note that I will, of course, recuse myself if any 
conflict should arise between CPB and KCET or in connection with any 
other entity with which I may be involved as an attorney or otherwise.)
    Public broadcasting fills a crucial need in our country by 
providing programming which might otherwise not see the light of day on 
commercial or pay television. Programming such as that which is 
designed for children, for caregivers, for pre-schoolers and, of 
special note, for all the elements of our increasingly diverse 
population.
    At KCET, I saw how public television comes to grips with these 
issues, how local, as well as national, interests are served. For 
example, in our state a third of the children entering Kindergarten are 
unprepared. With so many single-parent and two-working-parent families, 
children in the 0-5 age group, during the period of their greatest 
brain development, are often being raised by untrained caregivers. We 
were able to use television to provide these caregivers with tools to 
improve the readiness of the children in their care for Kindergarten. 
Our success in the first 2 years of production, when the show was aired 
only on public television stations in California, motivated CPB to 
award a grant to KCET that allowed the program to go national in its 
third season. The programs, ``A Place of Our Own'' in English and ``Los 
Ninos en Su Casa'' in Spanish, are now seen on public television 
stations reaching over 74 percent of the U.S. Television Households. 
The programs have won numerous awards, including the George Foster 
Peabody Award, and the websites won the international competition for 
The Japan Prize, awarded to one website in the world by NHK. This is a 
good example of the synergy between CPB and PBS.
    KCET also just premiered its newest production on PBS, an animated 
pre-school science program, ``Sid the Science Kid,'' which uses the 
latest motion capture technology to teach children the wonders of 
science. The companion website is geared to help parents capture the 
natural curiosity of their children to facilitate scientific inquiry in 
the earliest years.
    As Chair of KCET's Programming Committee, I have worked to support 
efforts to mount European co-production, which has led to a meaningful 
relationship with BBC on historical documentary, drama, and arts 
programming, including: ``Copenhagen,'' ``How Art Made the World,'' 
``Auschwitz and the Making of the Nazi State,'' and ``Stalin, Churchill 
and Roosevelt,'' which will air in 2009. This relationship is 
deepening, as KCET has been given the assignment to be the exclusive 
marketing and distribution agent for BBC World News for U.S. public 
television.
    I must add that my belief in the power and accomplishments of 
public radio is equally strong and I look forward to expanding my 
knowledge of the shape of this medium today and its opportunity to grow 
in the future.
    Please let me comment briefly on the importance of CPB's Community 
Service Grants. CSGs, as you know, are unrestricted grants to stations. 
They permit stations to operate--to pay salaries, to turn on the lights 
and, for public television stations, to help pay PBS dues. And to 
acquire programming. They are crucial.
    My ``day job'', as an entertainment lawyer for most of my career, 
also deals with communication and the media. This gives me an 
additional perspective and insights which can be helpful in serving 
CPB.
    My interest in communications goes back to my college days and now 
includes service on the Board of Councilors, and Co-Chair of the 
Executive Committee, of the USC Annenberg School for Communications. 
This Board exposes me further to the current and future needs and 
requirements of broadcasting, journalism and the media.
    My law practice and my involvement with both the Annenberg School 
and KCET have helped to educate me about new and evolving media and the 
changing media landscape. There may be an even greater future for 
public broadcasting if it can seize the advantages of these new 
technologies.
    Other community involvements of mine, which range from having 
served as National President of The American Jewish Committee to 
membership on the Boards of the University of Southern California, the 
Pacific Council for International Affairs and the Herrhausen Institute 
for International Dialogue of the Deutsche Bank, will also help me to 
contribute more meaningfully to CPB.
    If I am confirmed, my hope is to be part of the team strengthening 
an evolving public broadcasting system and its work in the communities 
across our country. I am committed to do all I can to enhance the 
already high quality of public broadcasting for our citizens and to 
work toward even wider diversity of programming, be it news, education, 
information or entertainment--always with the singular purpose of 
serving the interests of the American public.
    My commitment is passionate and deep. I hope to have the 
opportunity to serve my country and public broadcasting by being 
confirmed as a member of the Board of the Corporation for Public 
Broadcasting.
    Thank you for the opportunity for making this presentation and I 
look forward to answering any questions which any members of the 
Committee may have.
    Thank you.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (include any former names or nicknames used): Bruce M. 
Ramer.
    2. Position to which nominated: Board of Directors of Corporation 
for Public Broadcasting.
    3. Date of Nomination: The White House announced the intention to 
nominate on Thursday, May 29, 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not available to the public.

        Office: 132 South Rodeo Drive, Beverly Hills, CA 90212.

    5. Date and Place of Birth: August 2, 1933; Teaneck, New Jersey.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Madeline Smith Ramer, not employed; children: Gregg 
        Ramer, 41 on July 12; Marc Ramer, 39; Neal Ramer, 35; Alexandra 
        Lang Susman, 34.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Princeton University (Woodrow Wilson School of Public and 
        International Affairs), A.B., 1955.
        Harvard Law School, LLB, 1958.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Morrison, Lloyd & Griggs, attorneys, Hackensack, NJ.
        Gang, Tyre, Rudin & Brown (now Gang, Tyre, Ramer & Brown) Los 
        Angeles, CA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

------------------------------------------------------------------------
        Organization                 Type                Position
------------------------------------------------------------------------
University of Southern       Educational          Member, Board of
 California                   Institution          Trustees
(Los Angeles, CA)

University of Southern       Educational          Chair, Public Affairs
 California                   Institution          Committee
(Los Angeles, CA)

Alfred Herrhausen Society    Nonprofit            Member, Board of
 for International Dialogue                        Trustees
 of the Deutsche Bank
(Berlin, Germany)

Geffen Playhouse (UCLA)      Nonprofit            Founding Chairman,
(Los Angeles, CA)                                  Board of Directors

University of Southern       Educational          Chair, Institute on
 California Gould School of   Institution          Entertainment Law And
 Law                                               Business
(Los Angeles, CA)

USC Annenberg School for     Educational          Co-Chair Executive
 Communication                Institution          Committee, Board of
(Los Angeles, CA)                                  Councilors

KCET                         Nonprofit            Member, Board of
(Los Angeles, CA)                                  Directors

Pacific Council on           Nonprofit            Member, Board of
 International Policy                              Directors
(Los Angeles, CA)

Council on Foreign           Nonprofit            Member
 Relations
(New York, NY)

Committee on Present Danger  Nonprofit            Member
(New York, NY)

American Jewish Committee    Nonprofit            Chair, Latino and
New York, NY                                       Latin American
                                                   Institute

Southern California          Nonprofit            Member, Board of
 Committee for Olympic                             Directors
 Games
(Los Angeles, CA)

Homeland Security Advisory   Nonprofit            Member
 Council, Region One
(Los Angeles, CA)

Survivors of the Shoah       Nonprofit            Member, Board of
 Visual History Foundation                         Directors
(Los Angeles, CA)

USC Shoah Foundation         Nonprofit            Member, Board of
 Institute for Visual                              Councilors
 History and Education
(Los Angeles, CA)

Righteous Persons            Nonprofit            Member, Board of
 Foundation                                        Directors
(Los Angeles, CA)

National Foundation for      Nonprofit            Member, Board of
 Jewish Culture                                    Directors
(Los Angeles, CA)

American Bar Association     Nonprofit            Member
(Chicago, IL)

California Bar Association   Nonprofit            Member
(Sacramento, CA)

Los Angeles County Bar       Nonprofit            Member
 Association
(Los Angeles, CA)

Beverly Hills Bar            Nonprofit            Member
 Association
(Beverly Hills, CA)

The Fellows of the American  Nonprofit            Member
 Bar Foundation
(Chicago, IL)

132 Rodeo, Inc.              Corporation          Director, COB, CFO
(Beverly Hills, CA)

Gang, Tyre, Ramer & Brown,   Corporation          Director, President,
 Inc.                                              CEO
(Beverly Hills, CA)

G.T.R.& B. Charitable        Nonprofit            Director, President
 Foundation
(Beverly Hills, CA)

The CED Company, Inc.        Corporation          Director, VP, Asst.
(Los Angeles, CA)                                  Sec.

The Malpaso Company, Inc.    Corporation          Director, VP, Asst.
(Los Angeles, CA)                                  Sec.

Malpaso Pictures, Ltd.       Corporation          Director, VP; Asst.
(Los Angeles, CA)                                  Sec.

The Tehama Company, Inc.     Corporation          Director, VP; Asst.
(Los Angeles, CA)                                  Sec.

Somerset Enterprises, Inc.   Corporation          Director, VP;
(Los Angeles, CA)                                  Secretary

Scott Paint Company, Inc.    Corporation          Director, Secretary
 Fka Bruning Paint Company
(Baltimore, MD)

Amblin' Entertainment, Inc.  Corporation          Secretary
(Los Angeles, CA)

AEJ Services, LLC            LLC                  Secretary
(Los Angeles)

Amblin' Television, Inc.     Corporation          Secretary
(Los Angeles, CA)

Apaquogue Holdings, Inc.     Corporation          Director, Vice
(East Hampton, NY)                                 President

Copernicus Investments, LLC  LLC                  Vice President
(Los Angeles, CA)

County Wexford, LLC          LLC                  Vice President
(East Hampton, NY)

Darnit, Inc.                 Corporation          Director, VP
(Los Angeles, CA)

Diamond Lane Productions     Corporation          Secretary
(Los Angeles, CA)

DW Subs, Inc.                Corporation          Director, Secretary
(Los Angeles, CA)

Ferds, LLC                   LLC                  Director, VP
(Los Angeles, CA)

Film Properties Management,  Corporation          Director, VP
 Inc.
(Los Angeles, CA)

Global Enterprises I, LLC    LLC                  Secretary
(Los Angeles, CA)

Heights Investment Co.,      Corporation          Director, Vice
 Inc.                                              President
(Los Angeles, CA)

Neo Geo, Inc.                Corporation          Director, Vice
(Los Angeles, CA)                                  President

No. 2 Hampton Enterprises,   Corporation          Director, VP; Asst.
 Inc.                                              Sec.
(East Hampton, NY)

Nomo Funds, LLC              LLC                  Vice President
(Los Angeles, CA)

Our Gang, Inc.               Corporation          Director, Vice
(Los Angeles, CA)                                  President

Rabbit Ears, LLC             LLC                  Vice President
(Los Angeles, CA)

Sassafras, LLC               LLC                  Vice President
(Los Angeles, CA)

Topanga Peak, LLC            LLC                  Vice President
(Los Angeles, CA)

U-Drive Productions, Inc.    Corporation          Secretary
(Los Angeles, CA)

Whirlybird, LLC              LLC                  Secretary
(East Hampton, NY)

The Wunderkinder Foundation  Nonprofit            Director
(Los Angeles, CA)

The Zemeckis Charitable      Nonprofit            Director
 Foundation
(Los Angeles, CA)

Bruce M. Ramer Living Trust  Family Trust         Trustee
(Los Angeles, CA)

Bajamex, Ltd.                Corporation          Secretary-Treasurer
(Wilmington, DE)
------------------------------------------------------------------------


    In addition to the foregoing, as an attorney: (a) I represent a 
number of corporations and other business entities formed and owned by 
clients. These entities are privately held. I perform legal services 
for such entities in the normal course and do not render investment 
advice and (b) I serve as a co-trustee on a number of client-
established family trusts in connection with which I have no control 
over investments, having delegated that power to a co-trustee(s). 
Should you need any further information regarding these items, please 
let me know.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sec, race, color, religion, 
national origin, age, or handicap.

        Member, Board of Trustees, University of Southern California, 
        2003-. Chair, Public Affairs Committee, 2005-.

        Member, Board of Trustees, Alfred Herrhausen Society for 
        International Dialogue of the Deutsche Bank. 2004-.

        Founding Chairman and Member, Board of Directors, Geffen 
        Playhouse (UCLA) Los Angeles, 1995-.

        Chair, Institute on Entertainment Law and Business, University 
        of Southern California Law School, 2002-. Executive Director, 
        Institute on Entertainment Law and Business, University of 
        Southern California Law School, 1987-2002.

        Member, Board of Councilors, University of Southern California 
        Law School, 1986-.

        Co-Chair of the Executive Committee, Board of Councilors, 
        University of Southern California Annenberg School for 
        Communication, 2000-.

        Member, Board of Directors, KCET (Channel 28), Public 
        Television, Los Angeles, California, 1992-2004. Chair, 2001-
        2003. Director, 2005-.

        Member, Board of Directors, Pacific Council on International 
        Policy, 2005-.

        Member, Council on Foreign Relations, 2004-; Member, Committee 
        on Present Danger, 2007-.

        Member, Homeland Security Advisory Council, Region One, 2006-.

        National President, American Jewish Committee, 1998 to 2001. 
        Chair, National Board of Governors and National Council 1995 to 
        1998. Chair, Asia & Pacific Rim Institute 1990 to 1998. Chair, 
        American Jewish Committee's Latino and Latin American Institute 
        2004-. (Membership in the American Jewish Committee is 
        restricted to American Jewish citizens and residents.)

        Member, Advisory Board, Hollywood, Health & Society, 2001-2006.

        Member, Board of Directors, Los Angeles Urban League, 1987 to 
        1993; 1997-2002.

        Member, Board of Directors, Southern California Committee for 
        Olympic Games, 1998-.

        Member, Board of Directors, UCLA School of Medicine and Medical 
        Center, 1998 to 2004.

        Member, Board of Directors, Survivors of the Shoah Visual 
        History Foundation, 1994-2006; Member, Board of Councilors, USC 
        Shoah Foundation Institute for Visual History and Education, 
        2006-.

        Member, Board of Directors, Righteous Persons Foundation, 
        1994-.

        Member, Board of Directors, National Foundation for Jewish 
        Culture, 1999-2006.

        Member, Economic Strategy Panel of the State of California, 
        1997-1999.

        Member, Board of Directors, Jewish Federation Council of 
        Greater Los Angeles, 1996-2001.

        Member, American Bar Association, Est. 1959-; California Bar 
        Association, and Los Angeles County Bar Association, Est. 
        1963-. Beverly Hills Bar Association, 1984-. The Fellows of the 
        American Bar Foundation, 1996-. Member, American Bar 
        Association Special Committee on Judicial Independence, 1997-
        1999.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Please see the itemized list of all political contributions to any 
individual, campaign organization, political party, political action 
committee, or similar entity of $500 or more for the past 9 years 
attached hereto as Exhibit A. We are unable to locate political 
contributions, if any, for 1998.
    No offices held or services rendered to a political party or 
election committee.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and other special recognition for 
outstanding service or achievements.
    American Jewish Committee Learned Hand Award 2005. Survivors of the 
Shoah Visual History Foundation Ambassador for Humanity Award 2002. 
Medal of Honor of The Konrad Adenauer Foundation 2001. The Commanders 
Cross of The Order of Merit of The Federal Republic of Germany 2000. 
Beverly Hills Bar Association Entertainment Lawyer of the Year Award 
1996. National Conference for Community and Justice Annual Brotherhood 
Award 1990. Beverly Hills Bar Association Executive Director's Award 
1988. American Jewish Committee Community Service Award 1987.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    ``Closing Argument: Civility? Yes, Civility.'' Los Angeles Lawyer 
Magazine, May 2004, p. 60.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    (i) Hearing on H.R. 2121--Secret Evidence Repeal Act. House 
Judiciary Committee, May 23, 2000. Testimony (oral and in writing) on 
behalf of the American Jewish Committee, relating to proposed enactment 
of H.R. 2121.
    (ii) Hearing on H.R. 2121--Secret Evidence Repeal Act House 
Judiciary Subcommittee on Immigration and Claims, February 10, 2000, 
testimony submitted in writing on behalf of the American Jewish 
Committee, relating to proposed enactment of H.R. 2121.
    (iii) Hearing On the Treatment of Israel by the United Nations, 
House International Relations Committee, July 14, 1999.
    According to the website of the House International Relations 
Committee, I testified (without indicating whether both orally and in 
writing or just in writing) before that Committee on behalf of the 
American Jewish Committee, relating to the treatment of Israel by the 
United Nations.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualified you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been a supporter of and involved with public broadcasting 
since 1992, the year in which I joined the Board of Directors of KCET 
(PBS), Public Television for Southern California. I served as Chairman 
of that Board commencing 2001 with my term expiring in 2003. I serve 
currently as the Chair of the Programming Committee of the Board and as 
a member of both the Audit Committee and the Executive Committee.
    In addition, I have been a practicing attorney in the 
entertainment, communication and media business for over 40 years.
    I wish to serve as a member of the Board of Directors of the 
Corporation for Public Broadcasting in order to continue to work for 
and in support of public broadcasting. I believe that public 
broadcasting, whether radio or television, is a true and essential 
community asset and provides vital services, information, news, 
education and entertainment to the American public. I wish to do my 
part to preserve, protect and enhance that service.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, my responsibilities will be those of a director with 
dedicated fiduciary duties to the Corporation for Public Broadcasting, 
exercising appropriate oversight in seeking to ensure that the 
Corporation for Public Broadcasting maintains proper management and 
accounting controls.
    My experience in management is principally that involved with the 
running and operation of my law firm.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that the top three challenges facing the Corporation for 
Public Broadcasting are:

        (a) to secure the funding which will enable the Corporation to 
        continue to provide grants and financial assistance in program 
        production and the enhancement of the public broadcasting 
        services;

        (b) to use the assets of the Corporation for Public 
        Broadcasting wisely in providing public broadcasting services 
        to the American people; and

        (c) to maintain and increase viewership of public television 
        and listenership of public radio in order to provide the 
        maximum benefits of public broadcasting to the widest possible 
        segment of the American population.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    As a member of Gang, Tyre, Ramer & Brown, Inc., my law firm, I 
participate in a percentage of the net revenues derived from the firm 
from its practice of law. There is no deferred compensation agreement 
as such, although there is an agreement which provides a formula for 
payment following retirement in certain circumstances or death. As to 
retirement accounts, my law firm maintains a 401(k) program and I 
maintain an individual IRA.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    Yes. I intend to continue practicing law with my law firm and to 
maintain my affiliations with charitable and community organizations.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I believe that the only relationships in which I am involved which 
could involve potential conflicts of interest as a member of the Board 
of Directors of the Corporation for Public Broadcasting are my 
memberships on the Board of Directors of KCET and on the Board of 
Trustees of the University of Southern California. I will recuse myself 
from participation in any matters that come before the Board of the 
Corporation for Public Broadcasting involving either of these entities, 
whether respecting grants or otherwise.
    Clients of my law firm are engaged in various aspects of the 
production of motion picture and television and related products, but, 
with one exception, I do not recall any clients who have or contemplate 
seeking grants or other funding from the Corporation for Public 
Broadcasting. If any should occur I will recuse myself.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: Please see the answer to 
B.3., above.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Please see the answer to A.17 above. In addition, particularly in 
my capacity as a member, officer or Governor of the American Jewish 
Committee, I have from time to time participated in discussions with 
Members of the Senate or Members of the House or Members of the 
Administration pertaining to legislation or public policy, but in a 
general way and not as a lobbyist.
    Similarly, I have attended several meetings with Members of the 
Senate or Members of the House as a Trustee of the University of 
Southern California, but again not as a lobbyist but rather in a 
general way with respect to legislation or public policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As noted, I will recuse myself in any situation which apparently or 
actually presents a potential conflict of interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
even been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: Only as a result of my legal 
practice.
    4. Have you ever been convicted (including pleases of guilty or 
nolo contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    As a director of the Corporation for Public Broadcasting, I will 
use my best efforts to ensure that the Corporation complies with 
deadlines for information set by congressional committees.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    As a director of the Corporation for Public Broadcasting, I will 
use my best efforts to ensure that the Corporation does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        RESUME OF BRUCE M. RAMER

Curriculum Vitae
    Bruce M. Ramer, born Teaneck, New Jersey.
    A.B., Princeton University (Woodrow Wilson of Public and 
International Affairs); LLB, Harvard Law School.
    Lawyer, partner, Gang, Tyre, Ramer & Brown, Inc., 132 South Rodeo 
Drive, Beverly Hills, California 90212.
    Member, Board of Trustees, University of Southern California. 
Chair, Public Affairs Committee, 2005-. Member, Board of Trustees 
Loyola Marymount University, 1986-1997.
    Member, Board of Trustees, Alfred Herrhausen Society for 
International Dialogue of the Deutsche Bank. 2004-.
    Founding Chairman and Member, Board of Trustees, Geffen Playhouse 
(UCLA) Los Angeles. Member, Board of Directors of Rebuild L.A. 1992-
1996. Member, Board of Directors, LA 2000 Partnership 1992-1994.
    Chair, Institute on Entertainment Law and Business, University of 
Southern California Law School. Member, Board of Councilors, University 
of Southern California Law School. Co-Chair of the Executive Committee, 
Board of Councilors, University of Southern California Annenberg School 
for Communication.
    Member, Board of Directors, KCET (PBS Channel 28), Los Angeles, 
California (1992-2004). Chair, 2001-2003. Director, 2005-.
    Member, Board of Directors, Pacific Council on International 
Policy. Member, Council on Foreign Relations, 2004-.
    Chair, American Jewish Committee's Latino and Latin American 
Institute 
2004-.
    National President, American Jewish Committee, 1998-2001. Chair, 
National Board of Governors and National Council, 1995-1998. Chair, 
National Executive Council, 1992-1995. Chair, National Board of 
Trustees, AJC, 1989-1992. Chair, Asia & Pacific Rim Institute, 1990-
1998. National Vice President, AJC, 1982-1988. Past President, Los 
Angeles Chapter, AJC, 1980-1983. Chair, AJC Western Region, 1984-1986.
    Member, Board of Directors, Los Angeles Urban League, 1987-1993; 
1997-2002. Member, Board of Directors, Southern California Committee 
for Olympic Games, 1998-.
    Past President, Los Angeles Copyright Society; Past President, 
California Copyright Conference.
    Past President, Princeton Club of Southern California.
    Vice Chair at Large, 1991-1993, and Member, United Way Corporate 
Board of Directors, 1981-1993. Member, Executive Committee, 1989-1990. 
Chair, Council of Presidents, 1989-1990. Member, Community Issues 
Council, 1989-1990. Chair, Discretionary Fund Distribution Committee, 
1987-1989.
    Member, Board of Directors, UCLA School of Medicine and Medical 
Center, 1998-2004.
    Member, Board of Directors: Key3Media Group (2001-2002); Home 
Shopping Network, Inc. (1996-1998); QVC, Inc. (1994-1995).
    Member, Board of Governors, California Community Foundation 1988-
1998. Member, Board of Directors, Los Angeles Children's Museum, 1986-
1989.
    Member, Board of Directors, Survivors of the Shoah Visual History 
Foundation, 1994-2006; Member, Board of Councilors, USC Shoah 
Foundation Institute for Visual History and Education, 2006-.
    Member, Board of Directors, Righteous Persons Foundation, 1994-.
    Member, Board of Directors, National Foundation for Jewish Culture, 
1999-2006. Member, Economic Strategy Panel of the State of California, 
1997-1999.
    Member, Board of Directors, Jewish Federation Council of Greater 
Los Angeles, 1996-2001.
    Member, American Bar Association, California Bar Association, Los 
Angeles County Bar Association and Beverly Hills Bar Association, The 
Fellows of the American Bar Foundation. Member, American Bar 
Association Special Committee on Judicial Independence (1997-1999).
    Member, Committee on Present Danger, 2007-.
    American Jewish Committee Learned Hand Award 2005. Survivors of the 
Shoah Visual History Foundation Ambassador for Humanity Award 2002. 
Medal of Honor of The Konrad Adenauer Foundation 2001. The Commanders 
Cross of The Order of Merit of The Federal Republic of Germany 2000. 
Beverly Hills Bar Association Entertainment Lawyer of the Year Award 
1996. National Conference for Community and Justice Annual Brotherhood 
Award 1990. Beverly Hills Bar Association Executive Directors Award 
1988. American Jewish Committee Community Service Award 1987.
    Named among: the 100 Most Influential Lawyers in America by The 
National Law Journal (1994 and 1997); the 100 Most Powerful Lawyers in 
California (California Business Lawyer, 1999 and 2001); the Top 100 
Lawyers in California (Daily Journal, 2002, 2003 and 2004) .
    Married to Madeline Ramer. Four children: Gregg; Marc; Neal; and 
Alexandra.

    The Chairman. I thank you very much, Mr. Ramer.
    And may I now call upon Ms. Loretta Sutliff? I gather you 
have family members here?

                 STATEMENT OF LORETTA SUTLIFF,

             MEMBER-DESIGNATE, BOARD OF DIRECTORS,

              CORPORATION FOR PUBLIC BROADCASTING

    Ms. Sutliff. Thank you. Yes, I would love the opportunity 
to introduce my family.
    My aunt, Joan Sutliff, is here from Bainbridge Island, 
Washington. Also our daughter, Olivia Kathleen Rice, she's 7 
years old. And her father, my husband, John Patrick Rice, from 
Elko, Nevada, where John also serves on the Elko City Council, 
I might add.
    Mr. Chairman and Members of the Committee, thank you very 
much for the opportunity to appear before you today to discuss 
my nomination to the Board of the Corporation for Public 
Broadcasting.
    I would also like to extend my appreciation to President 
Bush for nominating me to the board and to Senator Reid for 
selecting me for consideration.
    I am a small-town broadcaster with almost 25 years' 
experience and accountability to my community. The more I 
understand about the mission of public television and radio, 
the more I realize I am uniquely qualified for this position.
    Our town, Elko, Nevada, is located some 160 miles away from 
the closest shopping mall, where our 7-year-old daughter can 
make her own teddy bear. We are surrounded by the fragile 
beauty of the high desert, rugged glacier-carved Ruby 
Mountains, and an ecosystem rich with wildlife unique to any 
other spot on the planet. I often tell family and friends 
spread across the country that we like to make our own fun.
    I think it is this desert experience that allows the spirit 
of individualism to take root, endure, and thrive. I also 
believe the Nation's public radio and television stations are 
poised to emerge as the beacons of culture, custom, and 
creative spirit as more of our mainstream media options are 
further franchised and consolidated.
    I work in commercial radio and television in a partnership 
to provide local news and programming. I host a daily radio 
talk show, ``Elko Live,'' at KELK, which has been on the air 
for almost 15 years. I also hosted the morning radio show on 
our local AM station for more than a decade until our daughter, 
Olivia, started kindergarten.
    Channel 10, KENV, is a local NBC television affiliate 
located on the Great Basin College campus under arrangement 
with Sunbelt Communications. My work at Elko Broadcasting 
Company is a continuation of a family owned tradition of more 
than 60 years. Our radio stations--KELK-AM, KLKO-FM--are deeply 
committed to community service in providing air time and talent 
to almost every charitable or beneficial cause in the region 
for decades.
    I have been providing weekday newscasts my entire broadcast 
career. As a result, I fully understand the responsibility of 
balanced and accurate reporting and the accessibility and 
involvement of broadcasters in the community.
    At KENV-TV, owned by Sunbelt Communications, I am very 
proud to work with and for some of the most inspiring and 
energetic people in our community. We craft a half hour of 
local television news each weekday and Saturday that is 
available both online and on air.
    I report, edit, produce, and anchor segments using 
technology that didn't exist when I first picked up a grease 
pencil and razor blade to splice tape on reel-to-reel. My 
colleagues and I are constantly learning and sharing, mentoring 
and encouraging, an attitude I recognize in the heart of public 
broadcasting.
    As broadcasters, we initiated through Great Basin College 
the first broadcast technology program to recruit and train 
future community broadcasters, producers, and filmmakers. This 
program is in its second year, and we have already seen a 
diversity of applicants from a local historian--she is already 
talented in conducting interviews--beginning her second career, 
to a young Shoshone student who shared her culture and 
viewpoint through newly developed skills in video production 
and outreach.
    What I hope to convey in this statement is my enthusiasm 
and optimism for the future of broadcasting, especially in 
areas that I can see public radio and television setting the 
standard and reaching viewers and listeners who are becoming 
frustrated with the loss of local voices and views in their 
communities. I have both vision and skill to inspire local 
origination broadcasting. I see that service as key to the 
future of preserving our unique identities, the expression and 
soul of the place we live and the people we are.
    The Public Awareness Initiative is an example of how public 
radio and television station leaders can increase the awareness 
of how public broadcasting enriches and informs daily life, 
whether for listeners in Owyhee, Nevada, a remote Western 
Shoshone reservation, listening for a road report, or in 
Sparta, Wisconsin, where my mother-in-law, Barbara Rice, tunes 
in to hear ``what NPR says'' while analyzing national politics. 
Many PBS viewers have sought refuge in ``The News Hour,'' 
during this election cycle to make sense of the sensations 
found elsewhere.
    The Story Corps project is one our community is familiar 
with because it is similar to local efforts by the Western 
Folklife Center in Elko, host to the National Cowboy Poetry 
Gathering, now celebrating a silver year anniversary, in 
launching the ``Sheep Camp for Stories.'' A Basque sheep wagon 
was outfitted to record oral histories during the winter event. 
Immigrants, grandparents, craftspeople, gold miners, sons and 
daughters of pioneer families have contributed their voices to 
this priceless archive, more valuable to the future than any 
trust fund.
    While there are challenges and mounting costs in providing 
broadcast signals, especially to distant and rural populations 
such as those found throughout Nevada, I believe an even bigger 
challenge not measured in money is in recruiting and retaining 
talented and dedicated future broadcasters who want to serve 
small- and medium-sized towns covering city council meetings 
and airing local election results, adding and blending local 
voices, opinions, and issues to that of national content.
    I appreciate the Talent Quest mission of inspiring and 
motivating our replacements. I believe expanded access to local 
origination in communities and on campuses will foster even 
more talent waiting to be discovered.
    I would be sorely remiss if I did not also applaud PBS for 
its work in continuing the quality children's educational 
programming I grew up with and now enjoyed by our daughter. 
From the mainstay ``Sesame Street,'' with its ageless yet 
contemporary characters, to new and vibrant programs such as 
``Between the Lions'' and ``Maya and Miguel,'' these are among 
children's programming on PBS that I know our daughter can 
watch.
    I understand well the mission of the Corporation for Public 
Broadcasting, and I would be honored to serve on the Board of 
Directors for the Corporation for Public Broadcasting.
    Thank you for considering me, and I would be happy to 
answer any questions.
    [The prepared statement of Ms. Sutliff follows:]

       Prepared Statement of Loretta Sutliff, Member-Designate, 
        Board of Directors, Corporation for Public Broadcasting

    Mr. Chairman and Members of the Committee: thank you very much for 
the opportunity to appear before you today to discuss my nomination to 
the board of the Corporation for Public Broadcasting. I would also like 
to extend my appreciation to President Bush for nominating me to the 
board and to Senator Reid for selecting me for consideration.
    I am a small town broadcaster with almost twenty-five years' 
experience and accountability to my community. The more I understand 
about the mission of public television and radio, the more I realize I 
am uniquely qualified for this position.
    Our town, Elko, Nevada, is located some 160 miles away from the 
closest shopping mall where our 7-year-old daughter can make her own 
teddy bear. We are surrounded by the fragile beauty of the high desert, 
rugged glacier-carved Ruby Mountains and an ecosystem rich with 
wildlife unique to any other spot on the planet. I often tell family 
and friends spread across the country that we like to ``make our own 
fun.''
    I think it is this desert experience that allows the spirit of 
individualism to take root, endure and thrive. I also believe the 
Nation's public radio and television stations are poised to emerge as 
the beacons of culture, custom and creative spirit as more of our 
mainstream media options are further franchised and consolidated.
    I work in commercial radio and television in a partnership to 
provide local news and programming. I host a daily radio talk show, 
``Elko, Live'' at KELK which has been on the air for almost 15 years. I 
also hosted the morning radio show on our local AM station for more 
than a decade until our daughter, Olivia, started kindergarten. Channel 
10 KENV is a local NBC television affiliate located on the Great Basin 
College campus under arrangement with Sunbelt Communications.
    My work at Elko Broadcasting Company is a continuation of a family-
owned tradition of more than 60 years. Our radio stations KELK AM/KLKO 
FM, are deeply committed to community service in providing airtime and 
talent to almost every charitable or beneficial cause in the region for 
decades. I've been providing weekday newscasts my entire broadcast 
career. As a result, I fully understand the responsibility of balanced 
and accurate reporting and the accessibility and involvement of 
broadcasters in the community.
    At KENV TV, owned by Sunbelt Communications, I'm very proud to work 
with and for some of the most inspiring and energetic people I n our 
community. We craft a half-hour of local television news each weekday 
and Saturday that is available both online and on air. I report, edit, 
produce and anchor segments using technology that didn't exist when I 
first picked up a grease pencil and razor blade to splice tape on reel-
to-reel. My colleagues and I are constantly learning and sharing, 
mentoring and encouraging, an attitude I recognize I n the heart of 
public broadcasting.
    As broadcasters we initiated through Great Basin College, the first 
Broadcast Technology Program to recruit and train future community 
broadcasters, producers and filmmakers. This program is in its' second 
year and we have already seen a diversity of applicants, from a local 
historian, already talented in conducting interviews, beginning her 
second career; to a young Shoshone student who shared her culture and 
viewpoint through newly-developed skills in video production and 
outreach.
    What I hope to convey in this statement is my enthusiasm and 
optimism for the future of broadcasting, especially in areas that I can 
see public radio and television setting the standard and reaching 
viewers and listeners who are becoming frustrated with the loss of 
local voices and views in their communities. I have both vision and 
skill to inspire local origination broadcasting and see that service as 
key to the future of preserving our unique identities; the expression 
and soul of the place we live and the people we are.
    The Public Awareness Initiative is an example of how public radio 
and television station leaders can increase the awareness of how public 
broadcasting enriches and informs daily life, whether for listeners in 
Owyhee, Nevada, a remote Western Shoshone reservation listening for a 
road report, or in Sparta, Wisconsin where my mother-in-law Barbara 
Rice tunes in to hear, ``what NPR says,'' while analyzing national 
politics. Many PBS viewers have sought refuge in ``The News Hour,'' 
during this election cycle to make sense of the sensation found 
elsewhere.
    The ``Story Corps'' project is one our community is familiar with. 
It is similar to a local effort by the Western Folklife Center in Elko, 
host to the National Cowboy Poetry Gathering now celebrating a Silver 
Year, in launching the ``Sheep Camp for Stories.'' A Basque sheep-wagon 
was outfitted to record oral histories during the winter event. 
Immigrants, grandparents, craftspeople, gold miners and sons and 
daughters of pioneer families have contributed their voices to this 
priceless archive, more valuable to the future than any trust fund.
    While there are challenges and mounting costs in providing 
broadcast signals, especially to distant and rural populations such as 
those found throughout Nevada, I believe an even bigger challenge not 
measured in money is in recruiting and retaining talented and dedicated 
future broadcasters who want to serve small- and medium-sized towns, 
covering city council meetings and airing local election results, 
adding and blending local voices, opinions and issues to that of 
national content.
    I appreciate the Talent Quest mission of inspiring and motivating 
our replacements. I believe expanded access to local origination in 
communities and on campuses will foster even more talent waiting to be 
discovered.
    I would be sorely remiss if I did not also applaud PBS for its work 
in continuing the quality children's educational programming I grew up 
with, and now enjoyed by our daughter. From the mainstay, ``Sesame 
Street,'' with its ageless yet contemporary characters, to new and 
vibrant programs such as ``Between the Lions'' and ``Maya and Miguel.'' 
These are among children's programming on PBS, that I know our daughter 
can watch.
    I understand well the mission of the Corporation for Public 
Broadcasting and I would be honored to serve on the board of directors 
for the Corporation for Public Broadcasting. Thank you for considering 
me and I would be happy to answer any questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: (include any former name or nicknames used): Lori Gilbert 
(aka Loretta Cheryl Sutliff)
    2. Position to which nominated: Board of Directors of the 
Corporation for Public Broadcasting.
    3. Date of Nomination: May 29, 2008.
    4. Address:

        Residence: Information not available to the public.

        Office: KENV, 1500 College Parkway, Elko, Nevada 89801; KELK/
        KLKO, 1800 Idaho Street, Elko, Nevada 89801.

    5. Date and Place of Birth: August 1, 1963; Hill AFB, Ogden, Utah.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        John Patrick Rice, PhD, Director of Institutional Advancement, 
        Great Basin College, Elko, Nevada; children: Olivia Kathleen 
        Rice, age 7, second grade student, Northside Elementary, Elko, 
        Nevada.

    7. List all colleges and graduate degrees. Provide year and school 
attended.

        Great Basin College, Elko, Nevada, continuing education

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        KENV TV (Sunbelt Communication), News Director (06/1997 to 
        present).

        KELK/KLKO Radio (Elko Broadcasting), News Director (10/1986 to 
        present).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sec, race, color, religion, 
national origin, age, or handicap.

        Boys and Girls Club of Nevada, Board Member (2004 to present).

        Associated Press of California & Nevada, Board Member (1995 to 
        2000).

        Nevada Women's Fund, member (2007 to present).

    13. Have you ever been a candidate for and/or held public office 
(elected, non-elected, or appointed)? None.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and other special recognition for 
outstanding service or achievements.

        Heart of Hospice Award, Horizon Hospice, Elko, Nevada, 2008.

        Associated Press, Mark Twain Award, 2001 and 2003.

        Associated Press, News Station of the Year, 2000.

        Elko Area Chamber of Commerce Advocate Award, 1997.

        Various Associated Press Awards and Citations for outstanding 
        service, 1986 to present.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: Not Applicable.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to which you have 
been nominated and why do you wish to serve in that position?
    Given the Corporation for Public Broadcasting mission of providing 
universal access to high quality programming and services, I believe my 
long career as a rural journalist and broadcaster gives me a unique 
ability to accomplish a number of tasks, communicate with a variety of 
interests and has developed a sense of service, especially to remote 
populations. I understand how important it is to provide local news, 
information and programming.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    While I don't have particular experience managing a corporation or 
overseeing a large budget, I am prudent with the resources made 
available to me as an employee of a family-owned business, Elko 
Broadcasting Company, KELK and KLKO Radio Stations. I also work within 
the constraints of a corporate budget as provided by Sunbelt 
Communications, owner of KENV TV.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        a. As a nominee for this position, I have not talked directly 
        to any staff or agency person. In my own experience with the 
        Corporation for Public Broadcasting, mostly as a consumer, 1 
        realize there are challenges with the delivery of programming 
        and the funding required to maintain systems that meet FCC and 
        market technology demands.

        b. A second challenge, from my perspective as a nominee, is to 
        continue to serve the underserved, particularly children and 
        minorities, with local content. In my experience as a rural 
        broadcaster, I see less local programming and content being 
        made available to consumers, with a dwindling reserve of 
        talented journalists and broadcasters being encouraged to 
        pursue careers within their communities.

        c. A third perceived challenge; balancing content and delivery 
        through technology that is both informative and appealing to 
        future generations of listeners and viewers. I am fortunate to 
        work with exciting and talented young people and believe we 
        should rely on the upcoming generation to help shape current 
        and future content and explore the scope of delivery of news 
        and information services.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continued dealings with business associates, 
clients or customers. Please include information related to retirement 
accounts.
    I have a managed 401K account through Sunbelt Communications. Our 
daughter, a 529 College Plan, through Great Basin Bank. My husband has 
a 403B administered through the State of Nevada and VALIC.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I will continue my full-time employment as News Director with Elko 
Broadcasting Company and Sunbelt Communications working in radio and 
television news in my community. If appointed to this position, I have 
been asked by the local newspaper, the Elko Daily Free Press, to submit 
an article detailing the appointment and offering insight as to the 
role of the CPB in rural communities. There would be no compensation 
for this.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I am employed by commercial broadcast station owners who have been 
openly supportive of Public Broadcasting and our relationships to 
service in our communities. I do not anticipate anything but future 
support from both Elko Broadcasting Company and Sunbelt Communications 
if I were to be appointed to this position.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None
    5. Describe any activity during the last 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I am already in the practice of avoiding financial conflict of 
interest. As a working broadcaster, I do not accept gifts or any 
consideration valued at more than $25. If I were to be appointed to 
this position and were approached by any interest asking for 
consideration in exchange for compensation, I would report the incident 
to the appropriate ethics body.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
even been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleases of guilty or 
nolo contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have no past or present legal involvements or professional 
breaches of conduct. 1 am very accountable to my community and to the 
individuals and their families represented in our news coverage.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes, I believe I have demonstrated my ability to meet deadlines as 
a requirement of my profession. I meet deadlines each day.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for testimony and disclosures?
    Yes, I believe my experience as a veteran broadcaster and news 
reporter has prepared me to protect individuals who provide 
information, if necessary. If appointed to this position, I would be 
vigilant in this role.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may 
reasonably be requested to do so? Yes.
                                 ______
                                 
                       RESUME OF LORETTA SUTLIFF

CPB Board Nominee
    Loretta Sutliff began her work in broadcasting in 1983. Working 
under the broadcast name of ``Lori Gilbert,'' she has specialized in 
providing broadcast news in rural communities, with most of her career 
being spent as the news director for Elko Broadcasting Company's KELK 
and KLKO in Elko, Nevada. The Associated Press Television and Radio 
Association acknowledged her news department as the ``News Station of 
the Year'' in 1999. Her daily half-hour community news program, ``Elko 
Live,'' has provided listeners throughout northeastern Nevada with 
first-person news accounts of local, regional and national issues and 
events for nearly fifteen years.
    In 1997 she broadened her reach and her responsibilities as the 
founding news director and anchor of KENV News 10 in Elko. The KENV 
television news department, under her direction, produces news shows 6 
days each week. She also produces and anchors a thirty minute weekly 
news program, featuring in-depth discussions with community leaders on 
topics of current interest. News 10 regularly produces live community 
forums, including political debates between local, regional and state 
wide candidates. Her style of journalism holds local leadership 
accountable for their actions in ways no other media in the region 
requires, providing citizens with valuable information and insight for 
formulating opinions about the direction of their community. She 
continues to work on the air in both radio and television broadcasting, 
and is consistently recognized by news organizations for her 
outstanding contributions to broadcast journalism.
    She studied communications at Weber State University in Ogden, 
Utah. She has served as an adjunct instructor of journalism at Great 
Basin College in Elko, as well as a member of the advisory committee to 
the community's public television and public radio signals, helping to 
bring public broadcasting service to viewers and listeners in some of 
the most remote reaches of rural Nevada. She was a member of the board 
of directors of the Associated Press Television and Radio Association 
of California and Nevada, and advised association members on rural news 
gathering and communications. She was recently inducted into the Nevada 
Broadcasters Hall of Fame. For the last 3 years she has served on the 
executive board of Boys and Girls Club of Elko, and is a past member of 
the board of directors of the Elko County Family Resource Center and 
the Elko County Juvenile Advisory Board. She is a regular host at the 
National Cowboy Poetry Gathering, held each winter in Elko.
    She is married to Dr. John Patrick Rice, an Administrative Officer 
at Great Basin College. They have a daughter, Olivia, an elementary 
school student.

    The Chairman. I thank you very much, Ms. Sutliff.
    Senator Stevens?
    Senator Pryor?
    I would like to advise the panel here that one of the 
members has submitted several questions, and we would like to 
submit them to you, and may I suggest that you respond to them 
as soon as possible so that we can carry out this process 
before we adjourn?
    We are trying our best to fulfill our responsibilities 
here. But as you know, we may be out of Washington in 2 weeks. 
So I would expect all of you to do your part.
    I have a couple of questions to all of you. As you know, 
since its creation, CPB has participated in programs, radio and 
television, that appeal to minority audiences, diverse 
audiences. And we have this consortia now, National Minority 
Consortia. Just want to know, do you support this?
    Ms. Halpern?
    Ms. Halpern. Forgive me. Thank you.
    As the Chairman of the CPB Board, I did take my colleagues 
to meet with both the Pacific Islanders, when we did visit 
Hawaii, as well as the Native American consortia leadership, 
when we were out at the Hopi reservation in Arizona.
    We are currently reviewing how to, in fact, engage more 
effectively with the consortia. And after the review is 
concluded, I know that the CPB staff will come and brief the 
Committee staff as well. But there is an absolute commitment by 
the current CPB Board, myself, if renominated, and I am 
assuming the new nominees as well, to be all we can be to every 
underserved or unserved audience as legislated.
    The Chairman. Mr. Ramer?
    Mr. Ramer. Mr. Chairman, the short answer is, yes, 
absolutely. I noted in my opening statement a reference to the 
need of public broadcasting to serve all the elements of an 
increasingly diverse population, and I think that is an 
essential part of what public broadcasting does, and I support 
the minority consortia.
    The Chairman. Thank you.
    Ms. Sembler?
    Ms. Sembler. I would agree. I do support it, and I believe 
that the mission--one of the missions of public broadcasting is 
education, and I would certainly like to see national 
programming that is reflective of what the consortia is doing.
    The Chairman. Ms. Sutliff?
    Ms. Sutliff. Thank you, Mr. Chairman.
    I, too, believe wholeheartedly in this minority consortium, 
and especially coming from rural Nevada, we know what it feels 
like to be a minority population. And we have important 
cultures to be represented within our communities as well. So, 
thank you, and again speaking as a nominee.
    The Chairman. Senator Pryor?
    Senator David Pryor. Yes, Mr. Chairman, thank you.
    I think, in a new sense of transparency, especially in the 
last 3 years for the board of the Corporation for Public 
Broadcasting, Board and its staff, there is, in fact, a new 
sense of transparency which does result, Mr. Chairman, in your 
finding and the Committee's staff finding that a great portion 
of our discussions in our Board meeting has been dedicated to 
the concept that public broadcasting, radio and television, 
must be totally open to every group and every portion of this 
country, regardless of race, color, creed, geographic region, 
et cetera.
    And therefore, I feel truly a bursting new commitment to 
fulfilling of this sense of fairness throughout our country, 
and I hope that our Committee staff members on the Commerce 
Committee and also would avail themselves of looking sort of 
into the record to see how much time and commitment we are 
having at this moment to making this become definitely a 
reality.
    Thank you.
    The Chairman. I thank you very much.
    I have just one more question. As you know, on February 17 
next year, we will switch from analog to digital signals. Do 
you believe that all public broadcasting stations, radio and 
TV, are ready for this?
    Ms. Halpern?
    Ms. Halpern. In this regard, I especially want to say thank 
you to the Senate--actually, to Congress--for providing the 
additional sources of funding to allow for the transition for 
the public broadcasting system to digital. To date, there are 
but 15 stations that are in the process of yet converting to 
digital.
    But more importantly, I need to applaud the public 
broadcasting family for the manner in which they are engaging 
with their audiences, their listeners and their viewers. They 
are effectively delivering messages regarding the converter 
boxes, how to access, how to become more comfortable with what 
will be forthcoming in February 2009.
    Thank you.
    The Chairman. Mr. Pryor, Senator Pryor, do you think we are 
ready?
    Senator David Pryor. Mr. Chairman, with all due respect, I 
think we are getting ready. And I think by February, we will be 
there. And I think this is an exciting moment. It is an 
exciting transition and development in the broadcast industry. 
Once again, it will serve more and more Americans more fairly 
and, I think, even more efficiently.
    Thank you, Mr. Chairman, yes.
    The Chairman. I thank you.
    Senator Stevens?
    Senator Stevens. I wonder what role the Board has in terms 
of looking at broad issues and whether they should be sort of 
headlined by the stations involved that you oversee. For 
instance, and it is provincial, the Chairman and I represent 
two new states. We will celebrate our 50th anniversary, each of 
us, on January 3 of next year. Alaska and Hawaii will have been 
a state for 50 years.
    As a matter of fact, it took 45 years for us to get 
statehood once we started that. I think Hawaii just slightly 
longer. But I just wonder, does your board go into and look at 
events ahead and ask the stations to recognize these events, or 
is this something that you don't get involved in?
    Yes, anyone? I don't care.
    Ms. Halpern. Senator----
    The Chairman. If you want his vote, you better give the 
right answer.
    Ms. Halpern.--the CPB board is not allowed by law to get 
involved with programming. But I would hope that the stations 
in Alaska, as well as in Hawaii, given their responsibilities 
as local public broadcasters, would certainly be celebrating 
the anniversary of statehood.
    When we visited Alaska and we went, in fact, up to Bethel, 
we were able to, as a board, listen to the type of programming 
that the stations provide, and the special connection, the life 
system that, for example, ``Tundra Drums'' provides in Bethel 
to those of the Inuit communities who become completely 
isolated when that tundra thaws is remarkable, unique, and so 
very special. So I cannot but imagine that they will do 
everything.
    Senator Stevens. Oh, I am sure they will in our state. I am 
talking about nationally. You don't have anything to do with 
that, right?
    Ms. Halpern. That we do not, sir.
    Senator Stevens. Thank you very much.
    The Chairman. With that, I would like to once again request 
that you respond to the questions that the Committee will 
submit to you, and the sooner we do this, we can expedite the 
process.
    Once again, thank you very much for your appearance here. 
And Senator Pryor, give my regards to Arkansas.
    Senator David Pryor. Thank you, Mr. Chairman. Thank you 
very much.
    The Chairman. And with that, we will try to speed up the 
process. Thank you very much.
    [Whereupon, at 11:23 a.m., the hearing was adjourned.]

                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                            All CPB Nominees

    Question 1. Public television offers some of the last locally-owned 
and controlled media in this country. Subsequently, its role in the 
marketplace of media is becoming increasingly important as we search 
for diverse opinions and voices. In fact, a 2003 study by the McGannon 
Center found that over a 2-week period, commercial broadcasters aired, 
on average, only 45 minutes of local public affairs programming per 
week, in contrast to the 3.5 hours aired by public broadcasters. How 
important do you see the role of public broadcasters as leaders in 
local programming?
    Ms. Halpern. I believe public broadcasting is a national treasure, 
and an invaluable community connector. In most communities, the public 
broadcasting station is the last locally-owned media operation and the 
only vehicle for significant discourse on local issues. If confirmed 
for a second term, I want to make sure that we protect and enhance the 
opportunities for public broadcasting entities across our country to 
provide this valuable connection through local programming.
    Ms. Gilbert. This is an extremely important issue to me. I believe 
public radio and television broadcasters will have an even greater role 
in providing local news and programming in the near future as 
competition and costs continue to squeeze commercial interests. I 
believe public broadcasting may soon be one of the only outlets to 
provide continued free access and information throughout the country.
    Mr. Ramer. I believe that public broadcasting is basically the last 
bastion of local broadcasting. For example, in my City of Los Angeles, 
KCET is the only ``local'' television station. In my opinion, while 
there are many reasons why public broadcasting is an essential for our 
Nation and a healthy democracy, having local stations is one of the 
most important reasons.
    Ms. Sembler. My 15 years of service at WEDU, the Tampa Bay area's 
public television station, has taught me the importance of localism. It 
is only our station that offers a weekly public affairs program, 
Florida This Week, in prime time on Friday evenings; only our station 
that produces and broadcasts two interview shows, one spotlighting 
local community leaders, the other, local business leaders; and our 
station alone that, through the generous funding of a community 
foundation, presents A Gulf Coast Journal with Jack Perkins, a show 
that highlights the people and places of Sarasota and west central 
Florida. Additionally, WEDU has provided our viewers with many special 
broadcasts about aspects of our local community, including shows that 
focused on the African-American community of St. Petersburg, FL, the 
Ringling Museum in Sarasota, FL and the Mote Marine Laboratory, also in 
Sarasota, to name but a few. WEDU also produces local offerings to 
dovetail with PBS programming (such as our local follow-up to The War 
series by Ken Burns, and our local ``town hall'' forum in response to 
Judy Woodruff s production Generation Next).
    WEDU is not alone. All across America, public television stations 
follow a similar formula to provide a perfect mix of local and PBS 
programming. It is what makes public television unique and, in my 
opinion, superior to all other television available.
    Additionally, and perhaps even more significantly, WEDU and public 
TV stations across the country reach out into the local community with 
our signature literacy program, Ready To Learn.
    Public television is truly THE leader in local programming. It is 
critically important for public broadcasters to continue in this role 
in our local communities.

    Question 2. The Board of the Corporation for Public Broadcasting 
serves a very important role and while it is not supposed to interfere 
with content, as we saw in 2005, the CPB Board has tried in the past. 
You will recall that in 2005, then-Chairman Kenneth Tomlinson tried to 
influence public broadcasting programming and hired a consultant to 
track the political leanings of the guests on Bill Moyers' show 
``Now.'' What is your opinion of Tomlinson's actions?
    Ms. Halpern. In 2005; as part of the arrangement which terminated 
Mr. Tomlinson's association with CPB, the Board of Directors signed an 
agreement which prevent us even today from publicly commenting on his 
tenure as CPB Board Chairman. Regardless of the former Chairman's 
actions, CPB has not since hired a consultant for any such purpose and, 
in fact, I would oppose any such a hire as a member of the CPB Board of 
Directors.
    Ms. Gilbert. As a nominee to the CPB, I have no firsthand 
information of the controversy surrounding the previous Chairman. I 
would not care to comment on specifics except to say, I intend that the 
past issues and controversy will inform better decisions and actions by 
the Board in the future.
    Mr. Ramer. Attempts on the part of CPB, its management or its 
Board, to interfere with or influence the content of public 
broadcasting is inappropriate and flies in the face of the statutory 
imperatives.
    Ms. Sembler. It is important to me, whenever I serve on a Board, to 
follow the guidelines and by-laws of the organization. I have learned 
over the course of this nomination process that CPB's statute prohibits 
CPB from interfering with local station operation or controlling 
editorial content or programming. I am in agreement with this 
prohibition, and if confirmed, I will work to ensure that CPB complies 
fully with the directives of the Public Broadcasting Act.

    Question 3. Does public broadcasting accurately reflect the 
diversity and variety of ideological views of Americans? Do you believe 
public broadcasting stations present balanced news coverage on local, 
national and international affairs?
    Ms. Halpern. Across the entire programming schedule, and especially 
in news and current affairs programming, I believe public broadcasting 
offers the most balanced news coverage of any news outlet in America. 
Programs like The Newshour with Jim Lehrer offer a variety of opinions 
on almost every issue discussed every night, representing a diversity 
and variety of views reflective of Americans across our country.
    Ms. Gilbert. As a nominee to the CPB, my comments are those of a 
consumer. I sincerely appreciate the educational, cultural and 
historical aspects of public television. I watch The NewsHour on PBS to 
get more accurate, less sensational views of national and international 
issues, especially after feeling there is too much opinion injected in 
commercial broadcasts. It's possible that NPR could do more to reflect 
regional and local issues in radio markets although I believe that 
opinion should be supported by community and management perspective.
    Mr. Ramer. I also believe that public broadcasting news programs--
both television and radio--seek to present balanced and objective news 
locally, nationally and internationally and certainly succeed far 
beyond that of commercial sources.
    Ms. Sembler. Yes, I believe that public broadcasting offers a 
variety of balanced news and current affairs programming, both 
nationally and at the local level. At WEDU in Tampa, we offer the 
public affairs program that I mentioned above, Florida This Week. On 
this program, along with a moderator, the producers always include four 
individual commentators who represent the varied parts of the political 
and community spectrum. Each week, white, African-American, and Latino 
leaders and thinkers articulate viewpoints that are conservative, 
liberal, and points in between. I am proud that WEDU works hard to 
create programming such as this that is balanced, fair and 
representational of the community it serves.
    I believe that national programming reflects this as well and 
strives to present balanced news coverage on national and international 
affairs. Programs such as The NewsHour with Jim Lehrer and Washington 
Week, for example, are well-respected for their balance.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                         Cheryl Feldman Halpern

    Question 1. In 2003, when you testified before the Senate Commerce 
Committee, Senator Lott said journalist Bill Moyers's post-election 
commentary was: ``the most blatantly partisan, irresponsible thing I've 
ever heard in my life,'' and said, yet the CPB ``has not seemed to be 
willing to deal with Bill Moyers and that type of programming.'' You 
responded: ``The fact of the matter is, I agree with you.'' And you 
said, referring to your time with the Broadcasting Board of Governors, 
``when there were allegations of impropriety and violation of the 
journalistic code of ethics, we were able to aggressively step in, 
review the transcript . . . and initiate penalties and change 
accordingly.'' This was prior to Tomlinson's attempt to address the 
programming of Bill Moyers. You acknowledged that the CPB cannot do 
this, yet you said to Senator Lott: ``so I'm as frustrated as you.'' 
Can you tell me how you differ from Kenneth Tomlinson in your views?
    Answer. Unlike the former Chairman, if confirmed for a second term, 
I will keep, and have kept, my personal opinions about the programs on 
public broadcasting separate from the discharge of my duties as a CPB 
Board member. Foremost amongst these duties is to, in the words of the 
Public Broadcasting Act of 1967, ``assure the maximum freedom of the 
public telecommunications entities and systems from interference with, 
or control of, program content or other activities.''

    Question 2. If you disagreed with Tomlinson's actions, why did I 
not hear you speak out in 2005, or preferably earlier to prevent them 
from occurring?
    Answer. In 2004 and 2005, Chairman Tomlinson acted as an executive 
Chairman of the Board and, as many media reports acknowledged at the 
time, many of his actions took place without the knowledge of the 
Board. Again, in 2005, as part of the arrangement which terminated Mr. 
Tomlinson's association with CPB, the Board of Directors signed an 
agreement which prevent us from publicly commenting on his tenure as 
CPB Board Chairman.

    Question 3. Do you believe that the Corporation for Public 
Broadcasting should assess purported political bias in public 
broadcasting content through the use of internal or external content 
analysis?
    Answer. No. CPB should not assess purported political bias in 
public broadcasting content. However, we are charged with complying 
with the mandate of the Public Broadcasting Act, which requires the 
CPB's Board of Directors to establish a ``comprehensive policy and set 
of procedures,'' that, among other things, provide for regular review 
of national public broadcasting programming for objectivity and 
balance.
    In the 2005 report from CPB's Inspector General, he recommended 
that the CPB Board establish formal policies and procedures for 
conducting regular reviews of national programming for objectivity and 
balance.
    In beginning to address the IG's recommendation, CPB and the Board 
consulted with the deans of the Nation's top schools of journalism, the 
Project for Excellence in Journalism, public broadcasters including 
National Public Radio (NPR) and the Public Broadcasting Service (PBS), 
relevant interest groups and others.
    Frankly, these discussions produced no clear consensus, with some 
stating the language of the Congressional mandate is either unclear or 
archaic according to the standards of modern journalism, and others 
urging CPB to focus instead on its ``most important'' role of 
insulating public broadcasters from outside pressures and protecting 
their independence.
    The Board subsequently requested that CPB management obtain 
research based on insights from the journalism community that could 
better inform our efforts to address the Public Broadcasting Act's 
requirements.
    Accordingly, in the winter of 2007, CPB issued seven requests for 
proposal (RFPs) for white papers, the topics for which are: (1) 
Objectivity and Balance: Conceptual and Practical History in American 
Journalism; (2) Objectivity and Balance: Today's Best practices in 
American Journalism; (3) Objectivity and Balance: How do Readers and 
Viewers of News and Information Reach conclusions regarding Objectivity 
and Balance?; (4) Journalism When Government Supports the Enterprise; 
(5) Concepts in Tension: the Challenge of ensuring Both Objectivity and 
Balance and Editorial Independence; (6) Best Practices in Assessing 
Objectivity and Balance; and (7) Expectations for Objectivity and 
Balance in Multi-Platform Distribution--Traditional and New Media.
    At the end of July, four white papers were submitted to CPB: 
``Objectivity and Balance: Conceptual and Practical History in American 
Journalism''; ``Objectivity and Balance: Today's Best practices in 
American Journalism''; ``Objectivity and Balance: How do Readers and 
Viewers of News and Information Reach conclusions regarding Objectivity 
and Balance''; and ``Concepts in Tension: the Challenge of ensuring 
Both Objectivity and Balance and Editorial Independence.''
    In early August, the authors of three of the papers participated in 
a workshop at the Association for Education in Journalism and Mass 
Communication conference in Chicago.
    This resulted in offers of assistance from several independent 
journalism entities to help us as well as a proposal for the White 
Paper on ``Expectations for Objectivity and Balance in Multi-Platform 
Distribution--Traditional and New Media.''
    Going forward, CPB will be integrating the findings of the white 
papers; Arranging for the white papers to be formally presented at 
national journalism conferences in 2009; working with at least two 
independent journalism entities on our further research needs as well 
as the development of a web-based training initiative on journalism and 
ethics which will include a module on balance, objectivity, fairness, 
accuracy and transparency directed toward professionals, academics and 
lay persons alike; and sponsoring a national symposium on the impact of 
digital media on journalism. At the same time, CPB will also continue 
to work with stakeholders in the public broadcasting system on the 
issue of editorial independence as well as on objectivity and balance.
    We will make sure to keep you and your staff abreast of our efforts 
to meet our statutory ``objectivity and balance'' mandate.

    Question 4. What level of autonomy do you believe should be given 
to news programming decisions made by public broadcasters?
    Answer. I believe they should be given complete autonomy.

    Question 5. Have you taken any action during your tenure on the 
Corporation for Public Broadcasting to influence the direction or 
outcome of programming?
    Answer. No, I have not.

    Question 6. Were you calling for more Board transparency and checks 
and balances on the Board before the Tomlinson actions and before the 
Inspector General's report was issued?
    Answer. It was not until after I assumed the Chairmanship of the 
CPB Board of Directors that we initiated a top-to-bottom review of 
CPB's operations and procedures. Never before had our organization 
undertaken such a major examination of every task, operation and 
practice. During this time, we made significant revisions to our 
governance procedures, established more clearly defined roles and 
responsibilities for the Board Chari and for the CPB President and CEO, 
improving accountability and transparency in the operations of the our 
organization.
    I am very proud of our work, and I believe we addressed and 
continue to address many of the issues identified in the 2005 report of 
the Inspector General, and in so doing, we have created an atmosphere 
of transparency, integrity, ethical values and clear assignments of 
authority and responsibility for the CPB board and staff.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                             Bruce M. Ramer

    Question 1. Former Chairman Kenneth Tomlinson believed that 
programming created by public broadcasting was partisan and biased. Do 
you share these views? If yes, do you believe, as the former Chairman 
did, that the Board should be able to take corrective action?
    Answer. I do not believe that public broadcasting is partisan or 
biased.

    Question 2. Do you plan to attempt to influence the direction or 
outcome of public broadcasting programming?
    Answer. No.

    Question 3. What do you think of the value or depth of news and 
information on public broadcasting as compared to other news sources?
    Answer. Based upon my knowledge of what is broadcast by public 
broadcasting and by commercial broadcasters, I believe that there is 
more depth of the news and information on the public system than on 
commercial broadcasting.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Elizabeth Sembler

    Question 1. Based on your experience with public broadcasting in 
Tampa and with the Association for Public Television Stations (APTS), 
what are the greatest challenges public broadcasting faces in the near 
future?
    Answer. In my opening statement, I identified three areas that I 
believe present the greatest challenges for public broadcasting in the 
near future:

        A. The February 17, 2009 analog shut-off for television 
        broadcasts. Of the estimated 25 million Americans who receive 
        their television programming over the air (and who will need to 
        do the most to transition to digital reception), a significant 
        number are supporters and viewers of public television. Public 
        broadcasters must work hard with commercial broadcasters and 
        the Congress to ensure the success of the transition and ensure 
        that the audience for public television can find its 
        programming.

        B. Competition in a multi-channel, multi-platform universe. It 
        is imperative that public broadcasting is on the cutting edge 
        of media technology to reach viewers and listeners on the media 
        outlets they choose to use.

        C. Funding. This continues to be a great challenge for public 
        broadcasting, and the Federal Government's role is even more 
        important now as we head into the digital age. While Federal 
        funding of public broadcasting may only represent 15 percent of 
        total revenue, this 15 percent is essential in garnering 
        support from other sources. While CPB have lately received 
        modest increases for our advanced Federal funding, this has 
        hardly kept pace with inflation.

    Question 2. Do you believe the Corporation for Public Broadcasting 
should be granted more authority to address claims of bias?
    Answer. No. While I do believe that the public certainly has the 
right to respond to and comment on public broadcasting, I am not 
convinced that the CPB itself should address claims of bias. Suffice it 
to say, I am comfortable with the parameters that now define the CPB's 
role in this area, and do not think it is wise to change them.

    Question 3. Are you committed to transparency on the Corporation 
for Public Broadcasting and how can the CPB's transparency be improved?
    Answer. Yes, and if confirmed I will work to ensure transparency 
remains at the forefront of all of CPB's operations. CPB is a 
federally-funded and thus public institution; the public has the right 
to know about its workings.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                            Loretta Sutliff

    Question 1. What are your views, regarding the importance of 
localism to the future of public broadcasting?
    Answer. I feel very strongly that if public broadcasting does not 
strengthen the current commitment to providing local news and 
programming, future generations will be forced to subscribe to or 
``purchase'' only franchised information. Local news coverage is also 
very important to the balance of government and law enforcement in any 
community. I understand that Senator Dorgan is concerned about the 
incidence of violent crime on Native American reservations, as is our 
community. Greater scrutiny by local media is a form of public 
protection.

    Question 2. What value has localism in public broadcasting brought 
to your rural Nevada community?
    Answer. I recognize the value that public broadcasting's local 
focus brings to communities, large and small, across the country. 
Furthermore, as a small town broadcaster with almost twenty-five years' 
experience, localism is what my job is all about. In fact, in the time 
I've been sitting at my desk to answer these questions I've received 
phone calls ranging from a Nevada Forester hoping to promote a local 
tree sale, to the Chairman of the Elko Area Chamber of Commerce as 
we're coordinating a series of candidate debates, including a televised 
forum featuring the U.S. Congressional Race for the 2nd District in 
Northern Nevada. Our involvement is a direct reflection of a busy 
community that relies on us. As a commercial broadcaster in radio and 
television, we are unique in that we provide services usually only 
found in public broadcasting.

    Question 3. Do you plan to attempt to influence the direction or 
outcome of public broadcasting programming?
    Answer. As a nominee, it has been clearly explained to me that 
members of the Board of Directors of the CPB are to have no influence 
on programming or content.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
